Report No. D-2009-064      March 24, 2009




   FY 2007 DoD Purchases Made Through the
         National Institutes of Health
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
BFNR                  Bona Fide Needs Rule
CIO-SP2i              Chief Information Officer-Solutions and Partners 2 Innovations
COR                   Contracting Officer’s Representative
DAU                   Defense Acquisition University
DFARS                 Defense Federal Acquisition Regulation Supplement
DIA                   Defense Intelligence Agency
DLA                   Defense Logistics Agency
ECS III               Electronic Commodities Store III
FAR                   Federal Acquisition Regulation
IG                    Inspector General
IW2nd                 Image World 2 New Dimensions
MIPR                  Military Interdepartmental Purchase Request
NIH                   National Institutes of Health
O&M                   Operation and Maintenance
SOW                   Statement of Work
U.S.C.                United States Code
                                      INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE
                                       400 ARMY NAVY DRIVE
                                  ARLINGTON, VIRGINIA 22202-4704




                                                                                   March 24, 2009

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                  TECHNOLOGY, AND LOGISTICS
              UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF
                  FINANCIAL OFFICER
              COMMANDER, SOFTWARE ENGINEERING CENTER-BELVOIR
              COMMANDING OFFICER, SPACE AND NAVAL WARFARE
                  SYSTEMS CENTER ATLANTIC
              COMMANDER, AERONAUTICAL SYSTEMS CENTER
              DIRECTOR, DEFENSE INTELLIGENCE AGENCY

SUBJECT: FY 2007 DoD Purchases Made Through the National Institutes of Health (Report
         No. D-2009-064)

We are providing this report for review and comment. We considered comments fyom the Office
ofthe Under Secretary of Defense for Acquisition, Technology, and Logistics; the Office of the
Under Secretary of Defense (Comptroller)/ChiefFinancial Officer; the Software Engineering
Center-Belvoir; the Space and Naval Warfare Systems Center Atlantic; and the Aeronautical
Systems Center when preparing the final report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. The comments
received were responsive. However, we did not receive comments from the Defense Intelligence
Agency (DIA). Therefore, we request DIA comments on Recommendation B,2, by April 23,
2009.

Please provide comments that conform to the requirements of DoD Directive 7650,3, If
possible, send your comments in electronic format (Adobe Acrobat file only) to
AUDACM@dodig.mil. Copies of management comments must have the actual signature ofthe
authorizing official for your organization. We are unable to accept the / Signed / symbol in place
of the actual signature, If you arrange to send classified comments electronically, you must send
them over the SECRET Internet Protocol Router Network (SIPRNET),

We appreciate the courtesies extended to the staff. Please direct questions to me at (703)
604-9201 (DSN 664-9201).




                                             Richard B. Jolliffe
                                             Assistant Inspector General
                                             Acquisition and Contract Management

cc:    Health and Human Services Office of the Inspector General, Office of Audit
         Services
       General Services Administration Office of the Inspector General
Report No. D-2009-064 (Project No. D2007-D000CF-0262.000)                                   March 24, 2009

               Results in Brief: FY 2007 DoD Purchases
               Made Through the National Institutes of
               Health
What We Did                                                institute mandatory training for DoD contracting
In accordance with the National Defense                    officers on multiple-award contracts.
Authorization Act for FY 2007, we reviewed DoD             The Under Secretary of Defense (Comptroller)/
purchases made using National Institutes of Health         Chief Financial Officer should instruct DoD
(NIH) contracts. We reviewed 34 direct                     organizations to correct funding violations and
acquisitions valued at $221.0 million and 6                ensure appropriate funds are obligated and
assisted acquisitions valued at $280.0 million.            deobligated. When this is not possible, the
                                                           Comptroller should initiate preliminary reviews of
What We Found                                              the potential violations. In addition, the
DoD contracting officers continued to provide              Comptroller should determine why his office did
insufficient competition and inadequate                    not follow up on four violations last year and
documentation for direct acquisitions of goods.            monitor future followup.
Also, DoD contracting officers and contracting
officer’s representatives provided inadequate              The Commander, Software Engineering Center-
contract surveillance. For assisted acquisitions,          Belvoir and the Director, Defense Intelligence
DoD program and NIH contracting officials:                 Agency should not exercise the next options for
 favored the incumbent contractor,                        orders 2524 and 2520 under their Chief
 did not verify price reasonableness,                     Information Officer-Solutions and Partners 2
 awarded a task order for a requirement too               Innovations multiple-award contracts.
    large to be managed as a single task order, and
 did not accept a contractor’s proposal to reduce         The Commanding Officer, Space and Naval
    the price of a task order.                             Warfare Systems Center Charleston and the
In addition, DoD, NIH, and General Services                Commander, Aeronautical Systems Center should
Administration officials misused funds, causing            conduct a review and take disciplinary or
potential funding violations. We identified                administrative action against contracting officers
internal control weaknesses in the justification for       who repeatedly did not follow contracting rules.
using non-DoD contracts.
                                                           Management Comments and
Still, DoD and NIH officials have improved some            Our Response
interagency practices. NIH discontinued advance            All those providing solicited comments agreed
funding. DoD and NIH signed a memorandum of                with the recommendations, and the comments
agreement outlining the responsibilities of each           were responsive. We also received unsolicited
party. We believe that these steps will improve the        comments that did not specifically address the
NIH acquisition process And that DoD should                recommendations.
continue using NIH to purchase goods and
services.                                                  The Defense Intelligence Agency Director did not
                                                           comment on a draft of this report issued on
What We Recommend                                          December 15, 2008. We request the Director
                                                           provide comments on the final report by April 23,
The Under Secretary of Defense for Acquisition,
                                                           2009. Please see the recommendations table on
Technology, and Logistics (AT&L) should
                                                           the back of this page.

                                                       i
Report No. D-2009-064 (Project No. D2007-D000CF-0262.000)               March 24, 2009

Recommendations Table
Entity                           Recommendations            No Additional Comments
                                 Requiring Comment          Required
Under Secretary of Defense for                              A.1.
Acquisition, Technology, and
Logistics
Under Secretary of Defense                                  C.1., C.2., C.3.
(Comptroller)/Chief Financial
Officer
Commander, Software                                         B.1
Engineering Center-Belvoir
Commanding Officer, Space and                               A.2.
Naval Warfare Systems Center
Atlantic
Commander, Aeronautical                                     A.3.
Systems Center
Director, Defense Intelligence   B.2.
Agency

Please provide comments by April 23, 2009.




                                             ii
Table of Contents

Results in Brief                                                                i

Introduction                                                                    1

       Objectives                                                               1
       Background                                                               1
       Review of Internal Controls                                              4

Finding A. Direct Acquisition Through National Institutes of Health
Contracts                                                                       7

       Recommendations, Management Comments, and Our Response                  19

Finding B. Assisted Acquisition Through National Institutes of Health
Contracts                                                                      21

       Unsolicited Management Comments on the Finding and Our Response         30
       Recommendations, Management Comments, and Our Response                  31

Finding C. Funding Analysis                                                    33

       Management Comments on the Finding and Our Response                     42
       Unsolicited Management Comments on the Finding and Our Response         42
       Recommendation, Management Comments, and Our Response                   44

Appendices

       A. Scope and Methodology                                                47
       B. Prior Coverage                                                       53
       C. Task Order Awarded by the General Services Administration            55
              Unsolicited Management Comments on the Appendix and
                     Our Response                                              58
       D. Funding Analysis Summary                                             61
       E. Potential Bona Fide Needs Rule Violations                            63

Management Comments

       Under Secretary of Defense for Acquisition, Technology, and Logistics   75
       Under Secretary of Defense (Comptroller)/Chief Financial Officer        77
       Software Engineering Center – Belvoir                                   80
       Space and Naval Warfare Systems Center Atlantic                         82
       Aeronautical Systems Center                                             86
Unsolicited Management Comments

      U.S. Army Special Operations Command   87
      National Institutes of Health          89
      General Services Administration        91
Introduction
Objectives
Our overall audit objective was to review DoD procedures for making purchases through
the National Institutes of Health (NIH). Specifically, we examined DoD and NIH’s
policies, procedures, and internal controls to determine whether DoD had a legitimate
need to use NIH, whether DoD clearly defined requirements, whether NIH and DoD
properly used and tracked funds, and whether requirements were competed in accordance
with the Federal Acquisition Regulation (FAR) and the Defense Federal Acquisition
Regulation Supplement (DFARS). See Appendix A for a discussion of the scope and
methodology. See Appendix B for prior coverage related to the objectives.

Background
This audit was performed as required by section 817, Public Law 109-364, “John Warner
National Defense Authorization Act for Fiscal Year 2007,” October 17, 2006.
Section 817 states:

“(a) INSPECTOR GENERAL REVIEWS AND DETERMINATIONS.—
      (1) IN GENERAL.—For each covered non-defense agency, the Inspector General of
the Department of Defense and the Inspector General of such non-defense agency shall,
not later than March 15, 2007, jointly—
        (A) review—
                 (i) the procurement policies, procedures, and internal controls of such non-
        defense agency that are applicable to the procurement of property and services on
        behalf of the Department by such non-defense agency; and
                 (ii) the administration of those policies, procedures, and internal controls;
        and
        (B) determine in writing whether—
                 (i) such non-defense agency is compliant with defense procurement
        requirements;
                 (ii) such non-defense agency is not compliant with defense procurement
        requirements, but has a program or initiative to significantly improve compliance
        with defense procurement requirements;
                 (iii) neither of the conclusions stated in clauses (i) and (ii) is correct in the
        case of such non-defense agency; or
                 (iv) such non-defense agency is not compliant with defense procurement
        requirements to such an extent that the interests of the Department of Defense are
        at risk in procurements conducted by such non-defense agency.

     (2) ACTIONS FOLLOWING CERTAIN DETERMINATIONS.—If the Inspectors General
determine under paragraph (1) that a conclusion stated in clause (ii), (iii), or (iv) of
subparagraph (B) of that paragraph is correct in the case of a covered non-defense
agency, such Inspectors General shall, not later than June 15, 2008, jointly—



                                                1
       (A) conduct a second review, as described in subparagraph (A) of that paragraph,
regarding such non-defense agency’s procurement of property or services on behalf of the
Department of Defense in fiscal year 2007; and
       (B) determine in writing whether such non-defense agency is or is not compliant
with defense procurement requirements.”

Prior Audit and Corrective Actions by Management
During FY 2007, we conducted our first review of DoD use of the NIH contracts, and we
issued DoD Inspector General (IG) Report No. D-2008-022, “FY 2006 DoD Purchases
Made Through the National Institutes of Health,” on November 15, 2007. As a result of
the first audit, NIH and DoD made corrections that led to improvements. NIH eliminated
the practice of advance funding, returned $11 million in funds to DoD, and removed out-
of-scope work identified on DoD orders. In addition, NIH now reviews all statements of
work to determine whether the proposed work is within scope of NIH contracts, requires
appropriate acquisition planning for all task orders, and requires contracting officers to
sign all award documents for task orders. We believe that DoD should continue to use
NIH contracts because of the efforts DoD and NIH have made to fix the previous
problems.

DoD and NIH Memorandum of Agreement
In April 2008, the Director of Defense Procurement and Acquisition Policy in the Office
of the Under Secretary of Defense for Acquisition, Technology, and Logistics, along with
the Director of the Office of Acquisition and Logistics Management at NIH, prepared a
memorandum of agreement for the use of NIH’s Government-wide acquisition contracts.
The memorandum of agreement outlines DoD and NIH’s commitment to work together
as Federal partners and comply with acquisition rules and regulations. The memorandum
of agreement also defines the responsibilities of each party.

DoD’s responsibilities under the memorandum of agreement include:
   ensuring that all funding meets DoD-specific policies and regulations;
   documenting a justification for using the NIH contracts, in accordance with
      DFARS 217.7802, “Policy;”
   placing orders only for bona fide needs within the funds’ period of availability;
   preparing a determination and findings document for using a time-and-materials
      order when using direct acquisition; and
   preparing award decision documents when using direct acquisition.

NIH’s responsibilities under the memorandum of agreement include:
    deobligating funds DoD provides in excess of contract requirements in a timely
       manner,
    ensuring that its internal acquisition procedures for DoD orders comply with DoD
       interagency contracting requirements,
    reviewing all statements of work and performance work statements to ensure
       requirements are within the scope of the NIH contract, and




                                            2
      preparing a determination and findings document for using a time-and-materials
       task order when using assisted acquisition.

Collaborative efforts between DoD and NIH include:
    ensuring that all vendors in the multiple-award contracts are provided a fair
       opportunity for award, as required in FAR 16.505, “Ordering,” and documenting
       any exception to the fair opportunity process;
    ensuring quality assurance surveillance plans are developed before award and
       used after award;
    ensuring that interagency agreements are complete and accurately reflect the work
       to be done and the type of funding to be used;
    encouraging the use of the Electronic Commodities Store (ECS III) quoting tool;
       and
    ensuring that adequate price analysis is performed and that best value
       determinations are made for each solicitation.

Advance Funding
DoD Regulation 7000.14-R, “DoD Financial Management Regulation,” volume 4,
chapter 5 states that funding in advance may be authorized only by law or by the
President. The continued practice of funding in advance created enough problems within
DoD to compel the Under Secretary of Defense (Comptroller)/Chief Financial Officer to
issue “Advance Payments to Non-Department of Defense (DoD) Federal Agencies for
Interagency Acquisition” on March 1, 2007. This memorandum directs DoD
Components to stop the practice of advancing funds to non-DoD Federal entities unless
authorized to do so.

In accordance with this memorandum, NIH ceased requiring advanced funding for
actions processed after July 1, 2007. However, from the date the Under Secretary of
Defense (Comptroller)/Chief Financial Officer issued the memorandum, March 1, 2007,
until July 1, 2007, NIH required that DoD fund 27 military interdepartmental purchase
requests (MIPRs) totaling $28.7 million in advance of services being performed. This
total accounted for 28.9 percent of the funding actions provided in FY 2007 and obligated
after March 1, 2007. There are currently expired funds remaining at NIH that were
funded in advance of services being performed. These funds should be deobligated. See
Appendix D for a complete discussion of funds to be deobligated.

Because of the problems identified in the first audit, in accordance with section 817(a)(2)
of Public Law 109-364, we conducted a second review. This review covered FY 2007
purchases made through NIH.

We believe that the memorandum of agreement and the end of the advance funding
practice will improve the overall NIH acquisition process.

NIH Contracting Mechanisms
DoD made purchases through NIH primarily under its ECS III and Chief Information
Officer-Solutions and Partners 2 Innovations (CIO-SP2i) contracts. However, we also


                                             3
reviewed one order placed under the Image World 2 new dimensions (IW2nd) contracts.
The NIH contracts are Government-wide acquisition contracts governed by the Clinger-
Cohen Act. The Clinger-Cohen Act assigns overall responsibility for the acquisition and
management of information technology to the Director, Office of Management and
Budget. The Office of Management and Budget designated NIH as an executive agent.
This designation gave NIH the authority to make the ECS III, CIO-SP2i, and IW2nd
contracts available to the entire Federal Government as Government-wide acquisition
contracts.

The ECS III multiple-award contracts provide commercial off-the-shelf information
technology products and services and are structured as indefinite-delivery, indefinite-
quantity contracts using firm-fixed-price delivery orders. DoD contracting officers can
use direct acquisition1 to award delivery orders under the ECS III contracts.

The CIO-SP2i multiple-award contracts provide information technology services. The
CIO-SP2i contracts are structured as indefinite-delivery, indefinite-quantity contracts.
The task orders may be time-and-materials, firm-fixed-price, cost-sharing, cost-plus-
fixed-fee, or cost-plus-award-fee. Customers can use either direct or assisted2 acquisition
to award task orders under the CIO-SP2i contracts. Although DoD contracting officers
can use direct acquisition to award task orders under the CIO-SP2i contracts, an NIH
contracting officer must review the statement of work to determine whether the work is
within the scope of the contract, and NIH issues the request for proposal. NIH
contracting officers can use assisted acquisition to award task orders under the CIO-SP2i
contracts on behalf of other Government organizations.

The IW2nd contracts provide hardware, software, and services for the implementation of
imaging technology requirements. The IW2nd contracts are structured as indefinite-
delivery, indefinite-quantity contracts using firm-fixed-price delivery or task orders.
DoD contracting officers can use direct acquisition to award either delivery or task orders
on the IW2nd contracts. However, an NIH contracting officer must review the statement
of work to determine whether the work is within the scope of the contract, and NIH
issues the request for proposals.

Review of Internal Controls
At the sites visited, we identified material internal control weaknesses as defined by DoD
Instruction 5010.40, “Managers’ Internal Control Program Procedures,” January 4, 2006.
DFARS 217.7802 required Departments and agencies to implement procedures for
justifying the use of non-DoD contracts. At the sites we visited, contracting officials
either did not justify or did not adequately justify the use of a non-DoD contract. We are
not issuing a recommendation to the Under Secretary of Defense for Acquisition,
Technology, and Logistics to improve the internal control deficiencies found during the
audit because we reported similar issues in recent audit reports. The Under Secretary of

1
  Direct acquisitions are task or delivery orders awarded by DoD officials using a contract awarded by a
non-DoD organization.
2
  Assisted acquisitions are task or delivery orders awarded on behalf of DoD by a non-DoD organization.


                                                    4
Defense for Acquisition, Technology, and Logistics is aware of the issues and is taking
corrective action. We will provide a copy of the report to the senior officials responsible
for internal controls in the Office of the Under Secretary of Defense for Acquisition,
Technology, and Logistics and in the Office of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer.




                                             5
6
Finding A. Direct Acquisition Through
National Institutes of Health Contracts
DoD contracting officials did not comply with the FAR and DFARS when making
purchases through the NIH multiple-award contracts. We reviewed 34 delivery and task
orders, valued at $221.0 million.

For the 29 delivery orders (orders for goods) awarded under the ECS III multiple-award
contract, DoD contracting officers:
    provided insufficient competition for 21 delivery orders, valued at $13.9 million;
        and
    did not prepare an award document for 5 delivery orders, valued at $0.9 million.

For the four task orders (orders for services) awarded under the CIO-SP2i multiple-award
contract, DoD contracting officers:
    did not verify price reasonableness for two orders, valued at $23.1 million;
    poorly planned two orders, valued at $23.0 million; and
    provided inadequate contract oversight for two orders, valued at $23.0 million.

For the delivery order awarded under the IW2nd multiple-award contract, valued at
$5.7 million, DoD contracting officers provided insufficient competition and did not
verify price reasonableness.

DoD contracting officials were unaware of, improperly followed, or misinterpreted FAR
and DFARS requirements and used poor judgment. As a result, DoD has no assurance it
obtained the best value, has no assurance that the prices were fair and reasonable for
services, and may have caused a bona fide needs rule (BFNR) violation of $0.5 million
for one order.

Delivery and Task Orders Reviewed
We reviewed 34 delivery and task orders valued at $221.0 million and awarded as
follows:
     29 delivery orders, valued at $16.8 million, awarded under the ECS III multiple-
       award contract;
     4 task orders, valued at $198.4 million, awarded under the CIO-SP2i multiple-
       award contract; and
     1 delivery order, valued at $5.7 million, awarded under the IW2nd multiple-award
       contract.

ECS III Delivery Orders
During FY 2007, we identified 49 delivery orders awarded by DoD with values greater
than $100,000, using the ECS III multiple-award contract. The total value of the 49
delivery orders was $19.7 million. We reviewed 27 of these delivery orders, valued at



                                            7
$13.6 million, which represented 69 percent of the total dollar value of FY 2007 DoD
delivery orders.

In addition, we reviewed two non-FY 2007 delivery orders: one was awarded during
FY 2006 and one during FY 2003. We reviewed the delivery order awarded during
FY 2006, valued at $167,411, because we had indications that there may be a BFNR
violation. We reviewed the delivery order awarded during FY 2003, valued at $3.1
million, because the order had options that extended into FY 2007.

Therefore, we reviewed 29 delivery orders, valued at $16.8 million, awarded on the ECS
III multiple-award contract.

DoD contracting officials did not comply with the FAR when using ECS III multiple-
award contracts. Specifically, DoD contracting officials did not provide a fair
opportunity for all vendors to be considered for award on the ECS III multiple-award
contract and did not document the basis for award.

Fair Opportunity
Of the 29 ECS III delivery orders reviewed, DoD contracting officials did not provide
vendors a fair opportunity or adequately document an exception to fair opportunity for 21
delivery orders valued at $13.9 million. FAR 16.505(b)(1), “Fair Opportunity,” requires
the contracting officer to provide all vendors on a multiple-award contract with a fair
opportunity to be considered for award unless there is a documented exception to the fair
opportunity process. Exceptions to fair opportunity may be made when a purchase is
urgent, there is only one capable vendor, sole-sourcing is in the interest of economy and
efficiency because the order is a logical follow-on to an order already issued under the
contract, or the award is necessary to satisfy a minimum guarantee.

Additionally, DFARS 216.505-70, “Orders Under Multiple Award Contracts,” requires
contracting officers to compete multiple-award delivery orders exceeding $100,000,
unless a waiver from competition is obtained. DFARS 216.505-70 states that an order is
“competitive” only if the contracting officer provides fair notice of the intent to make the
purchase to all contractors offering the required supplies or services under the multiple-
award contract, and affords all contractors responding to the notice a fair opportunity to
submit an offer and have that offer fairly considered. DFARS 216.505-70 states that this
requirement applies to orders placed by non-DoD agencies on behalf of DoD.

Instead of requesting quotes from all 65 vendors on the ECS III multiple-award contract,
contracting officers used a variety of incorrect procedures to award these delivery orders.
Contracting official(s):
     incorrectly followed FAR 8.405-1, “Ordering Procedures for Supplies, and
       Services Not Requiring a Statement of Work,” which governs the General
       Services Administration’s Federal Supply Schedule program and requires
       contracting officers to survey at least three supply schedule contractors. Some
       contracting officers thought they provided adequate price competition by
       receiving quotes from any three vendors on any contract, even if those contracts


                                             8
       were not part of the General Services Administration’s Federal Supply Schedule
       program.
      awarded orders on a sole-source basis without adequate justification for doing so.
      believed that obtaining any competition at all satisfied the fair opportunity
       requirement of FAR 16.505.

Clearly, contracting officers were unaware of the regulations governing the ECS III
multiple-award contract. Failure to provide a fair opportunity to all vendors on multiple-
award contracts could prevent DoD from obtaining the best value. Furthermore, it is
even more important to follow the correct procedures because new regulations permit
multiple-award contractors to protest the award of individual task and delivery orders
greater than $10 million, a change that could delay performance of important tasks or
receipt of necessary equipment.

Award Documentation
Of the 29 ECS III delivery orders reviewed, DoD contracting officials did not prepare
award selection documents for 5 delivery orders, valued at $853,212. FAR 16.505(b)(4),
“Decision Documentation for Orders,” requires DoD to document the basis for award
selection. In addition, FAR Subpart 4.8, “Government Contract Files,” requires
contracting officers to include in the contract files documentation supporting the basis for
award. Contracting officers claimed to be unaware of these requirements.

Previous Reporting of the Same Deficiencies
This lack of FAR knowledge is a continuing problem at some of the sites we visited. We
previously reported the same results regarding DoD contracting officers’ improper use of
non-DoD multiple-award contracts in DoD IG Report No. D-2008-022 (previous NIH
Report) and DoD IG Report No. D-2007-023, “FY 2005 DoD Purchases Made Through
the National Aeronautics and Space Administration,” November 13, 2006 (NASA
Report). We reviewed orders from a total of 25 different contracting offices during the
previous two audits and this audit. Contracting officers at each of these 25 contracting
offices did not properly use the multiple-award contracts.

The previous NIH Report discussed contracting officers not providing a fair opportunity
at:
     Naval Air Systems Command, Patuxent River, Maryland;
     Space and Naval Warfare Systems Center Atlantic, Charleston, South Carolina;
     Headquarters Air Force Materiel Command, Aeronautical Systems Center
       Directorate of Operational and Central Support Contracting (Aeronautical
       Systems Center), Wright-Patterson Air Force Base, Ohio; and
     Defense Information Technology Contracting Office Scott, Scott Air Force Base,
       Illinois.

The NASA Report discussed contracting officers not providing a fair opportunity at:
    Space and Naval Warfare Systems Center Atlantic, and
    Defense Information Technology Contracting Office, Scott Air Force Base.



                                             9
For this audit we visited the following sites again:
    Naval Air Systems Command,
    Space and Naval Warfare Systems Center Atlantic,
    Aeronautical Systems Center, and
    Defense Information Technology Contracting Office, Scott Air Force Base.

Of these four sites, only two sites have shown any improvement—Defense Information
Technology Contracting Office, Scott Air Force Base and Naval Air Systems Command.
We reviewed four orders at each of these sites and found that, for only one order at each
site, the contracting officer did not provide fair opportunity. Contracting officers at Air
Force Materiel Command, Aeronautical Systems Center, and Space and Naval Warfare
Systems Center Atlantic continued not providing a fair opportunity to all ECS III
vendors.

In November 2006, Space and Naval Warfare Systems Center Atlantic provided training
to its contracting officers to clarify and describe the specific procedures for awarding
orders on the General Services Administration Federal Supply Schedules, the ECS III
multiple-award contract, and the National Aeronautics and Space Administration’s
Scientific and Engineering Workstation Procurement multiple-award contract. We found
that the contracting officers made the same mistakes when awarding FY 2007 orders on
the ECS III multiple-award contract as they did when using the ECS III multiple-award
contract in FY 2006 and when using the National Aeronautics and Space
Administration’s Scientific and Engineering Workstation Procurement multiple-award
contract. One contracting officer stated that she did not see a problem with having only
three quotes if the quotes were all from NIH contractors, clearly showing that she does
not understand the FAR training provided to all contracting officers by Space and Naval
Warfare Systems Center management. Space and Naval Warfare Systems Center
Atlantic officials have not taken enough steps to prevent their contracting officers from
continuing to misapply and misunderstand FAR 16.505 and FAR Subpart 8.4, “Federal
Supply Schedules.”

Three of the contracting officials who failed to properly compete ECS III orders in
FY 2006 again failed to properly compete them in FY 2007. Two of these contracting
officials worked at the Space and Naval Warfare Systems Center Atlantic, and one
worked at the Aeronautical Systems Center. In our opinion, DoD should take appropriate
disciplinary or administrative action against contracting officials who repeatedly fail to
comply with acquisition requirements. Contracting officials have the authority to spend
taxpayer money, and they must take due care to ensure that the money is spent
efficiently.

CIO-SP2i Task Orders
During FY 2007, DoD awarded two task orders, valued at $1.2 million, using the
CIO-SP2i multiple-award contract. We reviewed both of these orders. In addition, we
reviewed one task order awarded in FY 2006 valued at $174.8 million. The period of
performance for that task order did not begin until FY 2007. We also reviewed a task


                                            10
order, valued at $22.5 million, awarded in FY 2004. Therefore, we reviewed four task
orders valued at $198.4 million awarded on the CIO-SP2i multiple-award contract.

Although fair opportunity was provided to all vendors on the CIO-SP2i multiple-award
contract, DoD contracting officials used improper contracting procedures when awarding
and administering task orders. Specifically, contracting officials did not verify that the
prices paid were reasonable. Also, contracting officials poorly planned acquisitions and
conducted poor contract oversight, potentially causing a BFNR violation.

Price Reasonableness
Of the four CIO-SP2i task orders reviewed, DoD contracting officials did not conduct
adequate price reasonableness determinations for two task orders valued at $23.1 million
(Table 1). FAR 15.404-1, “Proposal Analysis Techniques,” states that the objective of
proposal analysis is to ensure that the final agreed-to price is fair and reasonable and
states that the contracting officer is responsible for evaluating the reasonableness of
offered prices. Even when fair opportunity is provided and only one offer is received,
contracting officials must be cognizant of their responsibility to obtain reasonable prices.

 Table 1. CIO-SP2i Task Orders Without Price Reasonableness Determinations
     Order                          Awarded by                     Value
                   Aeronautical Systems Center—Wright-Patterson
FA8604-07-F-7145                                                    $688,774
                                Air Force Base, Ohio
                      Defense Logistics Agency—Fort Belvoir,
SP4700-04-F-0347                                                  22,460,223
                                      Virginia
     Total                                                       $23,148,997

For example, contracting officials at the Aeronautical Systems Center did not conduct a
complete analysis when they determined that the proposed price for task order FA8604-
07-F-7145 was fair and reasonable. Contracting officials received just one bid for the
task order, and the bid was from the incumbent contractor. Contracting officials
determined that there was adequate price competition based on the negotiated labor rates
on the CIO-SP2i multiple-award contract.

By addressing only the labor rates, contracting officials made an incomplete and
inadequate price reasonableness determination. While the labor rates from the CIO-SP2i
multiple-award contract had already been determined reasonable, this does not mean that
the overall price was reasonable. Contracting officials needed to verify that the
appropriate labor categories were used and that the hours proposed were reasonable. To
illustrate this point, in FY 2007, the contractor had 70 labor categories ranging from
$61.47 per hour to $290.13 per hour on its CIO-SP2i contract. Without verifying the
labor categories and proposed hours per labor category, contracting officials could not
ensure that the overall price was reasonable. An adequate price reasonableness
determination for a task order for services cannot be made without addressing the type
and quantity of labor hours because labor hours drive the overall price. If contracting
officials had conducted a sufficient price reasonableness analysis, the Government may
have obtained a better price.


                                             11
Planning
Of the four CIO-SP2i task orders reviewed, DoD contracting officials inadequately
planned for two orders valued at $23.0 million (Table 2). FAR Subpart 2.1,
“Definitions,” defines acquisition planning as “the process by which the efforts of all
personnel responsible for an acquisition are coordinated and integrated through a
comprehensive plan for fulfilling the agency need in a timely manner and at a reasonable
cost.”

              Table 2. CIO-SP2i Task Orders With Poor Planning
      Order                           Awarded by                               Value
                      Headquarters Defense Logistics Agency—Fort
 SP4700-04-F-0347                                                            $22,460,223
                                    Belvoir, Virginia
                     Defense Distribution Center—New Cumberland,
 SP1300-07-F-0454                                                                499,895
                                      Pennsylvania
      Total                                                                  $22,960,118

For example, the DoD technical point of contact at Defense Logistics Agency (DLA) in
Fort Belvoir, Virginia, and contracting officials at the Defense Distribution Center’s
Acquisitions Directorate-Contracting (Defense Distribution Center), New Cumberland,
Pennsylvania, used poor planning and judgment when awarding task order SP1300-07-F-
0454. This poor planning contributed to a potential BFNR violation. See finding C for a
complete description of the potential BFNR violation.

The Defense Distribution Center awarded the task order on September 29, 2007, for
$499,895 under the CIO-SP2i multiple-award contract. To fund the order, DLA
headquarters provided FY 2007 Operation and Maintenance (O&M) funds that expired
on September 30, 2007. DLA officials stated that these funds were remaining from an
earmark project, but we could not find any documentation to substantiate that statement.

DLA headquarters poorly planned this task order by preparing an inadequate statement of
work (SOW) and by not considering the funding needed for the requirement. The
technical point of contact at DLA headquarters prepared a SOW on May 21, 2007, but it
contained numerous deficiencies. After a few revisions, the technical point of contact
provided the DoD contracting officer with an acceptable SOW prepared on August 23,
2007, 3 months later.

As required for the CIO-SP2i multiple-award contract, the Defense Distribution Center
provided NIH with the SOW, and NIH contracting officials provided eligible contractors
with a fair opportunity for award consideration. Only one contractor submitted a
proposal. The contractor submitted the proposal on September 5, 2007, for $3.5 million
and a 42-month period of performance. The 42-month period was in accordance with the
August 23, 2007, SOW. However, the program and contracting officials decided it
would be more prudent to award a contract with options because there was uncertainty
regarding future funding for the requirement. Contracting officials asked the contractor
to revise the proposal to use a 12-month base period, two 12-month option periods, and
one 6-month option period. The contractor submitted the revised proposal on


                                           12
September 21, 2007, with a base period price of $959,041. The overall proposed price
including the base and options remained at $3.5 million.

With the FY 2007 O&M funds expiration date of September 30, 2007, approaching, more
problems arose. On September 27, 2007, the technical point of contact informed the
contracting officials that she had only $500,000 in funds available to pay for the base
period, which was approximately half the contractor’s proposed base price. On the
morning of September 28, 2007, the contract specialist asked DLA headquarters to revise
the SOW so that it could accommodate a price under $500,000. Although it took
3 months for the technical point of contact to prepare an acceptable SOW, she managed
to provide a revised SOW in less than 2 hours. Defense Distribution Center contracting
officials awarded the order on September 29, 2007, for a 1-year period of performance
with no options at a price of $499,895.

Clearly, the customer did not adequately plan for this requirement, and the lack of a plan
had a negative effect on the task order award. It took 3 months for DLA to revise the
SOW sufficiently for contracting officials at both DoD and NIH to determine that it was
acceptable for solicitation. Later, DLA had to rush a 2-hour revision to the SOW to cut
its scope in half in order to make the price fit the available funding before the funds
expired. Furthermore, the technical point of contact did not obtain the funding necessary
to fulfill the SOW. As a result, the price of the order was simply based on the available
funding. The price should be determined by how much money is reasonably required to
perform the work, not by how much funding is available.

Furthermore, even though the task order stated that the period of performance would
begin on September 29, 2007, the contractor did not begin working on the order until
March 2008. This order also had poor contract oversight, which is discussed in the next
section.

Contract Oversight
Of the four CIO-SP2i task orders reviewed, DoD contracting officials conducted
inadequate contract oversight for two task orders, valued at $23.0 million (Table 3).
FAR 46.101, “Definitions,” defines quality assurance as “the various functions, including
inspection, performed by the Government to determine whether a contractor has fulfilled
the contract obligations pertaining to quality and quantity.” One way to ensure quality
assurance is to develop a quality assurance surveillance plan. FAR 46.401, “General,”
states that these plans should specify all work requiring surveillance and the method of
surveillance.

          Table 3. CIO-SP2i Task Orders Lacking Contract Oversight
      Order                          Awarded by                     Value
                       Defense Logistics Agency—Fort Belvoir,
 SP4700-04-F-0347                                                 $22,460,223
                                        Virginia
                    Defense Distribution Center—New Cumberland,
 SP1300-07-F-0454                                                     499,895
                                     Pennsylvania
      Total                                                       $22,960,118


                                            13
The technical point of contact at DLA headquarters and contracting officials at the
Defense Distribution Center used poor judgment when designating a contracting officer’s
representative (COR) for order SP1300-07-F-0454 and may have contributed to a
potential BFNR violation.

For order SP1300-07-F-0454, the technical point of contact at DLA requested that
Defense Distribution Center contracting officials designate an employee within DLA’s
Office of Operations Research and Resource Analysis as the COR. The contracting
officials questioned the designation of this employee and thought, as we do, that the
appropriate designation would be the DLA technical point of contact who had worked
with their office to develop the SOW and award the order. According to the contracting
officials, the technical point of contact stated that the Office of Operations Research and
Resource Analysis employee would be an appropriate COR because the employee would
be working with the contractor. However, the COR stated that she did not work with the
contractor and that her role was limited to reviewing and approving the invoices. She
also stated that her office had no role in the requirement.

The COR designation letter stated that duties included maintaining communications with
the contractor and keeping the contracting officer informed by immediately notifying the
contracting officer if difficulties arose that could impede contract schedule, quality, or
cost. By signing the letter, the COR agreed to perform these duties.

However, the COR was clearly remiss in her duties. Although the period of performance
for the task order was from September 29, 2007, through September 28, 2008, the
contractor did not begin performing work on the task order until March 1, 2008. The
COR did not inform the Defense Distribution Center contracting officials until
February 14, 2008, that no work had been performed. In addition, the COR did not know
where the contractor employees were supposed to be working.

We believe the lack of planning and oversight associated with this task order contributed
to a potential BFNR violation. DLA headquarters provided FY 2007 O&M funds, which
were available for 1 year and expired on September 30, 2007. Therefore, work on the
task order was required to begin no later than September 30, 2007. Because the
contractor did not begin work on the task order until 5 months after the funds expired, we
believe that FY 2008 funds would have been the proper funds for the task order. See
finding C for a complete discussion of the potential BFNR violation associated with this
order.

We discussed this issue with Defense Distribution Center contracting officials on
March 18, 2008. They stated that they mistakenly believed that the order was funded
with FY 2007 research, development, test, and evaluation funds, which have a longer
availability period than O&M funds. When we informed them that the order had been
paid for with FY 2007 O&M funds, but work did not begin in FY 2007, they immediately
realized that using those funds to pay for the work performed in FY 2008 would




                                            14
potentially violate the BFNR, and they issued a stop-work order to the contractor the next
day, March 19, 2008.

For another order, SP4700-04-F-0347, contracting officials at DLA in Fort Belvoir,
Virginia, did not appropriately designate someone to perform contract oversight or
develop a quality assurance surveillance plan. This may have led to cost overruns and to
inadequate performance by the contractor going unnoticed.

DoD did not sufficiently monitor the contractor’s performance. This was a cost-plus-
fixed-fee task order, so the contractor was reimbursed for its actual incurred costs plus a
fixed fee. Therefore, it was necessary for DLA program officials to monitor the
contractor’s performance and ensure that the contractor worked efficiently and billed
accurately.

A contracting officer may designate a representative to perform contract oversight duties
as long as that designation is made in accordance with DFARS 201.602-2,
“Responsibilities.” DFARS 201.602-2 allows contracting officers to designate qualified
personnel as their authorized representatives to assist in the technical monitoring or
administration of a contract and provides the guidelines for doing so, which include
designating the individual in writing and ensuring that the individual is qualified by
training and experience to perform the duties. However, DLA headquarters did not
designate a COR until 11 months into performance and assigned a total of three CORs
over a 22-month period. DLA did not prepare a designation letter for any of these CORs,
and there was no evidence that any of them were properly trained. Furthermore, only one
of the three CORs performed contract surveillance; however, she was assigned as the
COR for only 4 months. In addition, contracting officials did not develop a quality
assurance surveillance plan, as required by FAR 46.401. A quality assurance
surveillance plan would have outlined what the COR should monitor and what method to
use.

By not designating CORs appropriately and by not developing a quality assurance
surveillance plan, DLA had little assurance that the contractor worked efficiently or
billed accurately for almost the first 3 years.

Administration of this task order was transferred from DLA to the U.S. Transportation
Command on July 19, 2007. Since taking over the task order administration, the
Command has performed adequate contractor surveillance. The Command assigned a
properly trained COR to the task order and specified his job responsibilities in a COR
designation letter. The Command also provided the COR with a thorough quality
assurance surveillance plan. Finally, the COR maintained detailed records showing that
he monitored the contractor’s performance.

IW2nd Delivery Order
We reviewed one IW2nd delivery order valued at $5.7 million that DoD awarded in
FY 2005. We reviewed this delivery order because in FY 2007 DoD added $99,814 to
the delivery order.


                                             15
By not providing a fair opportunity to all vendors and not issuing an award selection
document, DoD contracting officials did not comply with the FAR when using the IW2nd
multiple-award contracts. In addition, DoD contracting officials should have considered
this requirement a purchase of both goods and services, not a purchase of only goods.
Also, the contracting officer did not determine whether the price for the order was fair
and reasonable.

Fair Opportunity and Award Documentation
The contracting officer did not provide a fair opportunity to all vendors on the IW2nd
multiple-award contracts or document an exception to the fair opportunity process, as
required by FAR 16.505(b), “Orders Under Multiple Award Contracts.” The contracting
officer considered only one vendor for award. By not providing a fair opportunity to all
vendors on multiple-award contracts, DoD may not have obtained the best value.

The Fleet Industrial Supply Center Gulfport Detachment, formerly the Naval
Construction Battalion Center, awarded delivery order J421 on April 22, 2005, for
$5.5 million using the IW2nd multiple-award contract. DoD originally scheduled the
period of performance for 1 year but ultimately extended it to December 31, 2006.

For the IW2nd multiple-award contract, NIH has separate rules for awarding task orders
(orders for services) and delivery orders (orders for goods). For task orders, NIH requires
the customer to provide an SOW and then uses that SOW to solicit a request for
proposals from IW2nd vendors. It is NIH’s responsibility to provide a fair opportunity to
all vendors. For delivery orders, NIH allows DoD to issue a request for quotes directly to
the vendors. Fleet Industrial Supply Center contracting officials awarded delivery order
J421 directly to the contractor on a sole-source basis without an adequate justification.
The contracting officials stated that the contractor had worked on the project previously,
but provided no reason why the other multiple-award contractors could not perform the
work.

In our opinion, Fleet Industrial Supply Center contracting officials mistakenly identified
this project as a delivery order. The requirement was for the purchase and installation of
equipment, and the order had a period of performance of 1 year. The services associated
with this purchase were clearly more involved than those one would typically see on a
delivery order. We believe the contracting officer should have issued this as a task order.
Had the contracting officer issued this as a task order, it would have been NIH’s
responsibility to provide fair opportunity to all the IW2nd vendors. Throughout this audit
and our previous audit of DoD’s use of NIH contracts, NIH contracting officials
consistently provided all contractors with a fair opportunity when soliciting proposals. If
the requirement had been provided to NIH for solicitation, DoD may have been able to
obtain a better price through competition.

In addition, the contracting officer did not document the basis for award, as required by
FAR 16.505 and FAR Subpart 4.8.



                                            16
Price Reasonableness
The contracting officer did not determine whether the price was fair and reasonable. As
previously noted, FAR 15.404-1 states that the contracting officer is responsible for
evaluating the reasonableness of offered prices. Because delivery order J421 was a sole-
source award, there was no price competition; the contractor submitted its price proposal
knowing that it would be awarded the order. Contracting officials were required to
perform analysis to ensure that the Government paid a reasonable price; however, Fleet
Industrial Supply Center accepted the noncompetitive $5.5 million proposal without any
price analysis and did not make a determination that the price was reasonable.

Knowledge of Regulations
Based on interviews and documentation in the contract files, it is clear that DoD
contracting officials were unaware of, improperly followed, or misinterpreted acquisition
regulations governing the use of NIH’s three different multiple-award contracts.

DoD contracting officials are required to have knowledge of the legislation and
regulations used in acquiring goods and services at fair and reasonable prices on behalf of
the Government and to have the skills to apply the guidance to specific actions. The FAR
is the primary acquisition regulation in the Federal Government; therefore, contracting
officials should be well-versed in FAR criteria and how those criteria relate to specific
contracts. Contracting officials should have basic FAR knowledge about providing fair
opportunity on multiple-award contracts and documenting award decisions. In addition,
the contracting officers may receive advice from specialists in law, audit, engineering,
transportation, finance, or other functions; however, the contracting officers remain
responsible and accountable for the contracts.

DoD contracting officials showed a lack of FAR and DFARS knowledge related to:
   fair opportunity and preparing award selection documentation—FAR 16.505 and
      FAR 4.8.
           Contracting officers were unaware of the difference between a multiple-
              award schedule (a type of contract offered by the General Services
              Administration as part of its Federal Supply Schedule program), which is
              governed by FAR 8.4, and a multiple-award contract (such as the three
              NIH contracts we reviewed), which is governed by FAR 16.505.
           Contracting officers awarded orders on a sole-source basis without
              providing proper justification for doing so, as required by FAR 16.505.
           Contracting officers did not prepare award selection documents that
              outline the basis and rationale for the award, as required by FAR 16.505
              and FAR 4.8.
   price reasonableness determinations—FAR 15.404.
           Contracting officers did not determine whether offered prices were fair
              and reasonable, as required by FAR 15.404.
   contract oversight—FAR 46.101, FAR 46.401, and DFARS 201.602-2.
           Contracting officials did not conduct contract oversight because they did
              not develop quality assurance surveillance plans or properly designate



                                            17
              CORs. Without the duties and responsibilities for contract oversight being
              defined or assigned to a proper individual, surveillance and monitoring of
              the contractor’s performance, required by FAR 46.101, were not executed.

Some of the contracting officials who did not understand the above regulations have been
working as contracting officials for more than 20 years. Experienced contracting
officials should have a better understanding of these regulations. Because of the
continuing problems DoD contracting officers have had regarding the proper use of
multiple-award contracts and because new regulations allow contractors to protest certain
task or delivery order awards, DoD needs to make training mandatory for DoD
contracting officers. The training should address how the rules and regulations governing
multiple-award contracts differ from those governing the General Services
Administration’s Federal Supply Schedules, including the award and administration of
task and delivery orders. Furthermore, the training should direct contracting officers to
consult the applicable agency’s Web site prior to using that agency’s multiple-award
contract.

In our previous report, D-2008-022, we recommended that the Under Secretary of
Defense for Acquisition, Technology, and Logistics direct contracting officers to use the
NIH Web site’s Request for Quote system when using the ECS III multiple-award
contract. The Under Secretary of Defense for Acquisition, Technology, and Logistics
agreed with this recommendation and stated that DoD would coordinate with NIH to post
language on the Web site to require DoD users of the ECS III multiple-award contract to
use the Web site’s Request for Quote system. However, the NIH Web site states that “it
is highly recommended that DoD contracting officers use the ECS III quoting system.”
This is not the same as making use of the system mandatory. We would like the Under
Secretary of Defense for Acquisition, Technology, and Logistics to work with NIH to
change this language to reflect that use of the ECS III quoting system is not optional.

Summary
The foundation of good contracting when using multiple-award contracts is competition,
and its importance should not be overlooked. Adequate competition ensures that the
Government receives the best value. However, contracting officers at the DoD sites
visited did not foster a competitive environment because they did not provide ECS III and
IW2nd multiple-award vendors with a fair opportunity. The intent of multiple-award
contracting is to use an efficient acquisition process to achieve competition without
increasing the Government’s risk. Consistently failing to provide fair opportunity
prevents the Government from achieving savings through competition and is contrary to
FAR 16.505.

In addition, DoD contracting officers neglected to perform sufficient price analysis when
awarding task orders for services, in violation of FAR 15.402(a), which states that
contracting officers must purchase supplies and services at fair and reasonable prices.
This is one of the most important responsibilities contracting officers have because it
requires them to spend taxpayer money efficiently. On two of the orders reviewed, this
responsibility was ignored.


                                           18
Also, poor planning and organization by DoD contracting and program officials led to
inadequate contractor oversight and a potential BFNR violation.

DoD contracting officers did not consistently prepare award selection documents,
violating FAR 16.505.

Recommendations, Management Comments, and Our
Response
A.1. We recommend that the Under Secretary of Defense for Acquisition,
Technology, and Logistics institute mandatory training for DoD contracting
officers. This mandatory training should address how the rules and regulations
governing multiple-award contracts differ from those governing the General
Services Administration’s Federal Supply Schedules, including the award and
administration of task and delivery orders. Furthermore, the training should direct
contracting officers to consult the applicable agency’s Web site before using that
agency’s multiple-award contract.

Under Secretary of Defense for Acquisition, Technology, and
Logistics Comments
The Director of Defense Procurement provided comments for the Under Secretary of
Defense for Acquisition, Technology, and Logistics. The Director partially agreed with
the recommendation. The Director stated that the training currently provided by Defense
Acquisition University addresses how the rules and regulations governing multiple-award
contracts differ from those governing the General Services Administration’s Federal
Supply Schedules, including the award and administration of task and delivery orders.
The Director stated that the office would review the course materials to ensure they are
accurate and complete.

Our Response
Although the Director of Defense Procurement only partially agreed with the
recommendation, the comments were responsive because they meet the intent of the
recommendation. No additional comments are needed.

A.2. We recommend that the Commanding Officer, Space and Naval Warfare
Systems Center Atlantic perform a review and initiate appropriate disciplinary or
administrative action against contracting officers who have repeatedly failed to
follow acquisition regulations and continue to use incorrect award procedures when
using multiple-award contracts.

Space and Naval Warfare Systems Center Atlantic Comments
The Commanding Officer of the Space and Naval Warfare Systems Center Atlantic
provided comments through the Navy Office of the Assistant Secretary for Research,
Development, and Acquisition. The Commanding Officer agreed with the



                                          19
recommendation and stated that the appropriate disciplinary or administrative action
would be initiated, with an estimated completion date of March 31, 2009.

Our Response
The comments of the Commanding Officer, Space and Naval Warfare Systems Center
Atlantic were responsive. No additional comments are needed.

A.3. We recommend that the Commander, Aeronautical Systems Center perform a
review and initiate appropriate disciplinary or administrative action against
contracting officers who have repeatedly failed to follow acquisition regulations and
continue to use incorrect award procedures when using multiple-award contracts.

Aeronautical Systems Center Comments
The Commander of the Aeronautical Systems Center provided comments that met the
intent of the recommendation. The Commander stated that the Aeronautical Systems
Center performed a thorough review of orders recently awarded against multiple-award
contracts, would hold mandatory training for contract specialists and contracting officers
in the proper use of fair opportunity procedures when awarding orders against multiple-
award contracts, took administrative action against the contracting official who
repeatedly failed to provide fair opportunity on multiple-award contracts, and would
conduct quarterly self-inspections using a new checklist to ensure fair opportunity
procedures are followed on awards under multiple-award contracts. The quarterly
inspections have an estimated completion date of June 2009.

Our Response
The comments of the Commander, Aeronautical Systems Center were responsive. No
additional comments are needed.




                                            20
Finding B. Assisted Acquisition Through
National Institutes of Health Contracts
DoD program officials and NIH contracting officials did not comply with the FAR and
DFARS when making purchases through the CIO-SP2i multiple-award contracts.

For the five task orders reviewed, valued at $262.9 million, DoD program officials:
    provided an advantage to the incumbent on two task orders with a potential price
        of $13.1 million, and
    did not adequately monitor contractor performance on three task orders with a
        potential value of $258.7 million.

For the five task orders reviewed, NIH contracting officials, assisted by DoD program
officials:
     improperly administered three task orders, with a potential value of
        $258.7 million;
     awarded three task orders, with a potential value of $68.0 million, without
        adequately ensuring that the price was reasonable; and
     awarded all five task orders without preparing an award selection document.

The first two of these problems occurred primarily because DoD officials were biased
toward their incumbent contractor and because DoD officials responsible for contractor
surveillance had an excessive workload. The other three problems occurred primarily
because of the unclear division of responsibilities between NIH contracting officials and
DoD program officials. As a result, DoD and NIH did not ensure that reasonable prices
were negotiated when task orders were awarded, and they did not ensure that prices were
sufficiently controlled as task orders were administered.

As stated previously, DoD and NIH entered into a memorandum of agreement in April
2008 that defined the responsibilities of each party when DoD makes purchases using
NIH contracts. If both parties fulfill their responsibilities, they will solve many of the
problems we identified.

Task Orders Reviewed
During FY 2007, NIH awarded four task orders on behalf of DoD with a total potential
value of $261.4 million. We reviewed those four task orders. We also reviewed an order
NIH awarded on behalf of DoD in FY 2005 with a total potential value of $1.5 million.
We reviewed this order because it was not previously identified and was incrementally
funded in FY 2007. Therefore, we reviewed five task orders with a total potential value
of $262.9 million. We reviewed these task orders for contracting problems.

DoD program officials demonstrated a bias toward the incumbent contractor and did not
perform adequate contract oversight. NIH contracting officials, assisted by DoD program




                                             21
officials, did not properly administer task orders, did not adequately ensure that prices
were fair and reasonable, and did not document award selection.

Advantage for Incumbent Contractor
Of the five CIO-SP2i task orders reviewed that NIH awarded on behalf of DoD, two task
orders with a potential value of $13.1 million were awarded with a bias toward the
incumbent contractor (Table 4).

   Table 4. CIO-SP2i Task Orders Awarded With A Bias Toward the Incumbent
                                     Contractor
   Order                          Customer                   Potential Value
               Defense Intelligence Agency—Bolling Air Force
    2520                                                         $11,594,692
                            Base, Washington, DC
                 Assistant Secretary of Defense for Homeland
    2430                                                            1,506,184
                                    Defense
    Total                                                        $13,100,876

NIH awarded task order 2520 on behalf of the Defense Intelligence Agency (DIA)
Directorate of Information Management Enterprise Group, Bolling Air Force Base,
Washington, D.C., on October 27, 2006, to Computer Sciences Corporation. The task
order was for 1 base year and 2 option years and had a total price of $11.6 million.
Computer Sciences Corporation was the incumbent contractor, having performed similar
tasks for 4 years before the task order award.

A DIA program official stated that the reason DIA decided to use the CIO-SP2i multiple-
award contract was because Computer Sciences Corporation was one of the contractors.
NIH competed the order among all eligible CIO-SP2i multiple-award contractors and
received two proposals—one from Computer Sciences Corporation for $11.6 million and
one from Northrop Grumman for $10.0 million. Even though Northrop Grumman’s
proposed price was $1.6 million lower than Computer Sciences Corporation’s, DIA
officials concluded that Computer Sciences Corporation had submitted the better
proposal, rating Computer Sciences Corporation superior on nonprice factors such as past
performance, technical ability, personnel, and management.

Although DIA officials gave Computer Sciences Corporation higher nonprice ratings
than Northrop Grumman, they also conceded in their contractor selection document that
“in the evaluators’ view, the responders are equally capable of providing an acceptable
level of performance in all areas over time.” This concession, and the fact that DIA
decided to use the CIO-SP2i multiple-award contract because it included the incumbent
contractor, make it questionable whether DIA officials fairly evaluated the proposals and
whether the Computer Science Corporation advantages in nonprice factors were worth an
additional $1.6 million. DIA should not exercise the upcoming option and should instead
recompete the requirement and conduct a professional unbiased analysis of the bids
received.




                                             22
In another instance, NIH awarded task order 2430 on behalf of the Office of the Assistant
Secretary of Defense for Homeland Defense on September 12, 2005, to Systems
Research and Applications Corporation. The task order was for 1 base year and 2 option
years and had a total price of $1.5 million. Systems Research and Applications
Corporation was the incumbent contractor for this requirement, having performed similar
tasks for the Office of the Assistant Secretary of Defense for Homeland Defense in the
past.

The COR had a bias toward the incumbent contractor. On August 3, 2005, the COR
stated in an e-mail to the NIH contracting officer, “Our people are anxious to get started
on project w SRA [Systems Research and Applications Corporation].” The COR sent
this e-mail approximately 3 weeks before NIH issued the solicitation. The NIH
contracting officer did not address this concern, but instead stated that NIH was in the
process of sending the solicitation to the vendors. If the requirement was legitimate sole-
source procurement, it should have been treated as one, and negotiations with the
contractor should have taken place. Instead, the solicitation was considered competitive
although it was open for only 6 business days. This time frame did not give contractors
other than the incumbent much time to thoroughly review the SOW and prepare a
proposal. The incumbent contractor submitted the only proposal and was awarded the
task order. Based on the e-mail from the COR, it is questionable whether the Office of
the Assistant Secretary of Defense for Homeland Defense would have given any
consideration to proposals from other contractors if they had tried to compete for the
award.

In the April 2008 memorandum of agreement, DoD and NIH agreed to collaborate to
ensure that all vendors are provided a fair opportunity to be considered for award, unless
an exception applies. As part of this effort, both parties need to ensure that all contractors
are evaluated objectively, without bias. If DoD and NIH officials make an award to a
vendor that was not the lowest bidder, they need to thoroughly justify that the winning
bidder’s nonprice factors were worth the extra money.

Contract Oversight and Administration
Of the five CIO-SP2i task orders reviewed that NIH awarded on behalf of DoD, three
task orders with a potential value of $258.7 million had insufficient contract oversight
and improper contract administration (Table 5). Contract oversight, also known as
contract surveillance or quality assurance, is a way for the Government to ensure the
contractor meets the terms of the contract. FAR 46.101 defines Government contract
quality assurance as “the various functions, including inspection, performed by the
Government to determine whether a contractor has fulfilled the contract obligations
pertaining to quality and quantity.” One way to ensure quality assurance is to develop a
quality assurance surveillance plan. FAR 46.401 states that these plans should specify all
work requiring surveillance and the method of surveillance.




                                             23
    Table 5. CIO-SP2i Task Orders With Insufficient Contract Oversight and
                        Improper Contract Administration
   Order                           Customer                   Potential Value
               Joint Strike Fighter Program Office—Arlington,
   2494                                                            $63,701,110
                                    Virginia
               Enterprise Solutions Competency Center—Fort
   2524                                                            183,369,146
                               Belvoir, Virginia
               Defense Intelligence Agency—Bolling Air Force
   2520                                                             11,594,692
                            Base, Washington, DC
   Total                                                         $258,664,948

The COR for task order 2494 did not sufficiently monitor contractor performance, was
not designated by the contracting officer in a written letter, and could not produce a copy
of the task order or its modifications. Therefore, the COR could not be sure the
contractor was working efficiently and was completely unaware of the period of
performance and ceiling limit for the task order.

NIH awarded task order 2494 on behalf of the Joint Strike Fighter Program Office on
October 1, 2006. The period of performance was 1 base year and 4 option years, with a
total potential value of $63.7 million. This was a cost-plus-award-fee task order, which
meant that the contractor would be reimbursed by the Joint Strike Fighter Program Office
for all allowable costs plus an associated fee, up to the task order ceiling price of
$63.7 million. If the contractor worked more efficiently than expected and incurred
fewer costs, the Joint Strike Fighter Program Office would save money. Therefore, it
was necessary for the Joint Strike Fighter Program Office to monitor the contractor’s
performance to ensure that the contractor worked efficiently and accurately billed the
Government.

A quality assurance surveillance plan could have guided the COR in performing contract
oversight. However, Joint Strike Fighter Program Office officials did not develop a plan,
as required by FAR 46.401. In addition, the COR was not properly designated, as
required by DFARS 201.602-2. DFARS 201.602-2 allows contracting officers to
designate qualified personnel as their authorized representatives to assist in the technical
monitoring or administration of a contract and provides the guidelines for doing so,
which include designating the individual in writing and ensuring that the individual is
qualified by training and experience to perform the duties.

However, the COR was not designated in writing, had only 4 hours of training, and had
no prior experience with performing the necessary duties. In addition, he stated that he
did not actively monitor the contractor’s performance and had other duties that occupied
a significant amount of his time. Although he reviewed the contractor’s invoices and
status reports, he acknowledged that about 20 of the 60 contractor personnel worked off-
site, and he had no controls in place to ensure that they billed for their actual hours
worked. Therefore, there was no assurance that the contractor’s invoices showed their
actual costs. Given the high dollar value of this order, there is a risk that the Joint Strike



                                              24
Fighter Program Office could waste a significant amount of taxpayer money. DoD
should devote appropriate resources to the surveillance of high-dollar-value purchases.

In another instance, the COR insufficiently monitored contractor performance on, and
both DoD and NIH officials improperly administered, task order 2524. NIH awarded
task order 2524 on behalf of the Enterprise Solutions Competency Center (the Center),
Fort Belvoir, Virginia, on December 1, 2006. The Center is governed by the Software
Engineering Center-Belvoir, Fort Belvoir, Virginia. The task order was for 1 base year
and 4 option years, and had a total ceiling price of $183.4 million. This is a time-and-
materials task order, a contract type used when the quantity of required work is not well
known at the time of award.

The task order was to provide core functional support for the Center and to provide
contractor support to the Center’s customers through interagency agreements between the
customer and the Center. Each of the customers requiring contractor support for a
particular requirement would be identified as a new contract line item on task order 2524.

By the end of FY 2007, NIH had modified the task order 40 times. The Center had
12 customers on the task order plus its own core support and had provided $10.5 million
for services on 34 separate MIPRs. The NIH contracting officer stated that she believed
that the Center would provide large amounts of funds periodically, but did not realize the
full extent of contract administration required. In addition, according to NIH officials,
the accounting system at NIH could not handle the volume of financial transactions
associated with this order and associated with the contractor for this order, causing
significant discrepancies in the accounting records. Fortunately, the COR has a well-
developed tracking system to identify each invoice and the MIPR that the invoice should
be applied against.

Given the high dollar value, number of customers, the administrative workload, and
accounting problems for this task order, it is clear that it was not reasonable to administer
this requirement under a single task order. We believe this project should have been
administered under a separate task order contract under which each customer would have
a task order devoted to its particular requirement. The Center should have its own
contract, preferably with multiple awards, so that individual task orders could be issued
for each customer’s requirements. Alternatively, the Center could continue to use an
existing multiple-award contract, but should require each customer’s requirements to be
issued under its own task order. Either approach would enable the Center to assign a
separate COR to oversee the work done for each customer. In our opinion, it was
unrealistic to expect a single COR to monitor all tasks performed under the 2524 order
because of its high dollar value and the number and location of customers.

The Under Secretary of Defense for Acquisition, Technology, and Logistics
memorandum, “Enhanced Competition for Task and Delivery Order Contracts,” May 23,
2008, implements section 843 of the National Defense Authorization Act for Fiscal
Year 2008. The memorandum states, “No task or delivery order contract in an amount
estimated to exceed $100 million (including all options) may be awarded to a single



                                             25
source unless the Head of the Agency determines” that one of several special
circumstances exist. Task order 2524 has a total ceiling price of $183.4 million and was
issued to one contractor. Although this new requirement applies to orders issued on or
after May 27, 2008, this new guidance is yet another reason for the Center to address the
administration of this task order.

Option 1 for task order 2524 expired on November 30, 2008. During the audit, we
recommended that the Center not exercise the next option period for the task order.
Instead, the Center should support each customer by a separate task order, whether it
continues to use the CIO-SP2i multiple-award contract, uses a different existing multiple-
award contract, or establishes its own task order contract.

In another instance, the COR and NIH officials poorly administered task order 2520.
NIH awarded this task order on behalf of DIA on October 27, 2006. The task order was
for 1 base year and 2 option years and was awarded to Computer Sciences Corporation.
It had a base year price of $3.7 million and a total price of $11.6. It was a firm-fixed-
price order requiring Computer Sciences Corporation to provide a variety of information
technology services.

Less than 3 months after NIH awarded the task order, DIA officials determined that a
large portion of the services would no longer be required. DIA informed NIH of this
decision. DIA officials contacted Computer Sciences Corporation and requested that it
submit a revised price proposal that removed the costs of these services. Computer
Sciences Corporation eventually submitted a revised price proposal to DIA on April 6,
2007. In the revised proposal, Computer Sciences Corporation offered to reduce the base
year price by $936,150 from $3.7 million to $2.8 million. Computer Sciences
Corporation also offered to reduce the total price by $3.0 million from $11.6 million to
$8.6 million.

Although Computer Sciences Corporation had proposed in writing to reduce the price by
close to $1.0 million per year, DoD and NIH officials failed to issue a modification to
reduce the task order price. DIA officials told us that they contacted the NIH contracting
officer and requested that he issue a modification to reduce the task order price in
accordance with Computer Sciences Corporation’s revised proposal. However, DIA
officials could produce no documentation of these requests. NIH officials had no record
of any such requests either. DIA officials told us that after the NIH contracting officer
did not respond to their requests, they eventually just found other work for Computer
Sciences Corporation to do.

The failure of DIA and NIH officials to reduce the price of task order 2520 represents a
direct waste of taxpayer money. The contractor offered in writing to reduce the
Government cost by nearly $1.0 million for the base year, but the offer was not accepted
simply because of Government inaction. When Computer Sciences Corporation offered
in writing to reduce the price, it should have been a simple and routine task for DoD and
NIH officials to modify the task order. The failure to complete this simple task cost DoD
approximately $1.0 million for the base year.



                                            26
When NIH contracting officials exercised Option 1 on October 27, 2007, the task order
ceiling was increased by the original Option 1 price of $3,863,474, not the proposed
reduced Option 1 price of $2,861,051. A new COR was assigned to the task order for
Option 1 and is being more proactive. In July 2008, he conducted a program review to
determine what services DIA required from Computer Sciences Corporation, and to
determine the appropriate price of Option 1. As a result of the program review, the price
of Option 1 was reduced by $1,072,206 from $3,863,474 to $2,791,268. He stated that
DIA does not plan to exercise Option Year 2.

As a result of the bias toward the incumbent contractor and the failure to properly
integrate a nearly million-dollar-per-year price reduction, DIA should not exercise the
next option for this task order and should instead recompete the requirement.

In the April 2008 memorandum of agreement, DoD and NIH agreed to ensure that quality
assurance surveillance plans are developed before award and used after award. Quality
assurance surveillance plans could help eliminate problems with administration and
oversight. However, the plans need to include measures to ensure that contractors work
efficiently and bill accurately. Furthermore, oversight will not be effective if CORs have
excessive workloads.

Price Reasonableness
For the five CIO-SP2i task orders reviewed that NIH awarded on behalf of DoD, DoD
and NIH officials did not conduct adequate price reasonableness determinations for three
task orders with a total potential value of $68.0 million (Table 6). FAR 15.404-1 states
that the objective of proposal analysis is to ensure that the final agreed-to price is fair and
reasonable and states that the contracting officer is responsible for evaluating the
reasonableness of offered prices. Even when a requirement is competed, contracting
officials must be cognizant of their responsibility to obtain reasonable prices. When NIH
awarded task orders on behalf of DoD, the NIH contracting officer left the price analysis
to DoD program officials, who then conducted insufficient analysis. Consequently, DoD
and NIH did not ensure that the proposed prices were reasonable.

     Table 6. CIO-SP2i Task Orders With Inadequate Price Reasonableness
                                  Determinations
   Order                           Customer                     Potential Value
               Office of the Assistant Secretary of Defense for
   2430                                                              $1,506,184
              Homeland Defense—Pentagon, Washington, D.C.
               Joint Strike Fighter Program Office—Arlington,
   2494                                                              63,701,110
                                    Virginia
   2537        National Guard Bureau—Crystal City, Virginia            2,749,994
   Total                                                            $67,957,288

As stated in the previous section, NIH awarded task order 2430 on behalf of the Office of
the Assistant Secretary of Defense for Homeland Defense on September 12, 2005, to



                                              27
Systems Research and Applications Corporation. The task order was for 1 base year and
2 option years and had a total price of $1.5 million. The solicitation was open for only 6
business days. Only Systems Research and Applications Corporation, the incumbent,
submitted a proposal. The contractor selection document prepared by the Office of the
Assistant Secretary of Defense for Homeland Defense included no discussion of the price
or why the price was reasonable. The NIH contracting officer accepted this document
and signed the order with no additional price analysis. Thus, there was no assurance that
the proposal of $1.5 million represented a reasonable price.

In another instance, NIH awarded task order 2494 on behalf of the Joint Strike Fighter
Program Office, Arlington, Virginia, on October 1, 2006, to Stanley Associates. The
period of performance was for 1 base year and 4 option years, with a total potential price
of $63.7 million. Stanley was the incumbent contractor, having performed similar tasks
for the Joint Strike Fighter Program Office in the past.

Stanley Associates was the only contractor to submit a proposal. The contractor selection
document prepared by the Joint Strike Fighter Program Office stated that the
$63.7 million proposal was reasonable because “Stanley’s cost estimate is in line with the
government cost estimate, based on historical expenditures.” Once again, the NIH
contracting officer accepted this document and signed the order with no additional price
analysis.

Thus, the Joint Strike Fighter Program Office and NIH officials determined that the
$63.7 million price was reasonable solely by comparing it with the Government estimate.
Although a Government cost estimate is not required, if DoD uses one, it should be
reliable and thorough enough that the contracting officer can be sure that the estimate
itself represents a reasonable price. However, the estimate was extremely vague and
included far too little detail to provide assurance that it represented a reasonable price.

All labor costs for the base year and first option year were estimated simply as
152,667 “Professional” labor hours at a total cost of $5.7 million. Additionally, the
estimate simply stated total costs for other items for the base year and first option year,
such as $5.0 million for materials, supplies, and equipment and $1.3 million for
subcontracts. The estimated costs for option years 2 through 4 included even less detail;
the estimate merely stated a single total cost for each of these 3 years. The estimate
included no documentation to support these prices.

As a result, DoD and NIH had little assurance the $63.7 million price was reasonable. In
the April 2008 memorandum of agreement, DoD and NIH agreed to collaborate to ensure
that adequate price analysis is performed. The analysis should ensure that all elements of
a task order price are reasonable. The elements include direct labor rates, indirect rates,
the number of labor hours, subcontractor costs, and costs for materials. Furthermore,
DoD and NIH need to ensure that the appropriate labor categories are used.




                                            28
Award Selection Documents
For all five of the CIO-SP2i task orders reviewed that NIH awarded on behalf of DoD,
NIH contracting officials did not document the basis for award. FAR 16.505 requires
contracting officers to provide decision documents for orders awarded on multiple-award
contracts. The decision documents must state the rationale for the award and the price of
each order. The failure to establish price reasonableness could be attributed in part to
contracting officials’ not preparing an award selection document. Preparing an award
selection document would have forced the NIH contracting officer to address why the
price was reasonable.

Conclusion
DoD and NIH officials did not ensure that DoD obtained sufficient value for its money
on five of the six task orders they awarded using the assisted acquisition method. The
officials made numerous contracting mistakes and, in one case, wasted taxpayer money.
Some of these mistakes resulted in DoD and NIH officials awarding task orders with little
or no assurance that they paid reasonable prices. DoD officials were also unable to
sufficiently monitor contractor performance. In one case, DoD and NIH officials made
mistakes that directly resulted in the DoD loss of approximately $1 million of taxpayer
money.

Some of the problems were related to the size of the task orders. Task orders from
indefinite-delivery, indefinite-quantity contracts are intended for specific requirements.
However, DoD awarded two very large requirements as individual task orders. Task
order 2494 had a potential price of $63.7 million, and task order 2524 had a potential
price of $183.4 million. Despite the large dollar values, the solicitations for these two
orders were open for only 11 and 6 business days, respectively. Only one bid was
received for task order 2494, and only two bids were received for task order 2524. DoD
should be able to obtain more competition than this when awarding orders for large
information technology requirements.

Additionally, DoD overburdened its COR by awarding such large requirements on
individual task orders and expecting a single COR to monitor orders of this magnitude,
particularly when work is performed at multiple locations. These two task orders were
awarded on a cost-reimbursable and time-and-materials basis. The contractors had little
incentive to control their costs, so it was necessary for DoD to have reasonable assurance
that the contractors worked efficiently and billed for their correct costs.

Another major area of concern is price analysis of one-bid task orders. It is the
contracting officer’s responsibility to determine that the price of a task order is fair and
reasonable. This responsibility often was not fulfilled because the NIH contracting
officer allowed DoD officials to conduct the contractor proposal analysis, but the
contracting officer did not verify that the proposal analysis was sufficient to conclude that
the price was reasonable.




                                             29
DoD and NIH officials have made an effort to solve problems such as the unclear
responsibility for documenting price analysis. DoD and NIH entered into a memorandum
of agreement on the use of NIH Government-wide acquisition contracts in April 2008.
The memorandum of agreement clarifies the responsibilities of NIH and DoD officials
during the award process. Regarding price analysis, the memorandum of agreement
states, “DoD and NIH will collaborate to ensure that adequate price analysis is performed
and best value determinations are made consistent with the respective solicitation.”

The memorandum of agreement should help improve price analysis for task order
awards. Nevertheless, NIH and DoD officials need to make a concerted effort to ensure
that adequate price analysis and negotiations are conducted. In particular, DoD and NIH
officials need to improve their use of independent Government cost estimates. In the last
2 years, we have found that DoD and NIH officials have used independent Government
cost estimates as their basis for price analysis on several task orders, some exceeding
$50 million. The independent Government cost estimates were extremely vague and
lacked any supporting documentation; therefore, we believe that the independent
Government cost estimates were not a legitimate basis for price analysis.

If DoD and NIH officials use an independent Government cost estimate as the basis to
determine that the contractor’s proposed price is reasonable, then the officials need
assurance that the independent Government cost estimate itself represents a reasonable
price. In the future, DoD and NIH officials need to ensure that their independent
Government cost estimates include enough specific information to represent a reasonable
price. Because DoD and NIH entered into this agreement in April, we are not making
any recommendations regarding the communication weaknesses between DoD and NIH.

Unsolicited Management Comments on the Finding and
Our Response
The NIH Office of Management Assessment provided unsolicited comments on the
finding. For the full text of the NIH comments, see the Management Comments section
of the report. A summary of the comments follows.

National Institutes of Health Comments
First, NIH disagreed with our statement that task order 2494 did not have a COR
designated in writing. NIH stated that the original COR was designated in writing on
September 27, 2006, and that the replacement COR was designated in writing on April 5,
2008.

Second, NIH disagreed with our statement that NIH failed to issue a modification to
reduce the price of task order 2520. NIH stated that the order was not modified because
NIH never received a request from DIA to reduce the price.

Third, NIH disagreed with our statement that NIH officials, assisted by DoD program
officials, did not prepare an award selection document for the five CIO-SP2i task orders




                                           30
that we reviewed. NIH stated that all five orders contain a Solution Recommendation
Document Package, which documents the award decision rationale and order price.

Our Response
In response to the first comment, the replacement designated on April 5, 2008, was
actually the third COR assigned to this order. The second COR, who was assigned to
order 2494 at the time we reviewed it, was never designated in writing. Furthermore, he
had not taken COR training.

As for the second comment, the report states in this same paragraph that neither DIA nor
NIH had any documentation that specifically showed that DIA requested that the order be
modified in accordance with the contractor’s April 2007 proposal. However, DIA
provided documentation showing that DIA had previously asked NIH to reduce the task
order price.

On December 29, 2006, the DIA COR sent an e-mail to the NIH contracting officer
stating, “I was wondering if the MOD is completed for the reduction in our services.”

On February 16, 2007, the DIA COR sent another e-mail to the NIH contracting officer
asking, “Do you know when we’ll receive the MOD decommiting funds against the
contract?”

DIA officials provided us with these two e-mails but did not provide us with
documentation of any acknowledgment of the e-mails by the NIH contracting officer.

In response to the third comment, the report states that for all five of these orders, “NIH
contracting officials did not document the basis for the award.” This statement is correct.
The Solution Recommendation Document Packages were prepared and signed by DoD
program officials, not by the NIH contracting officer. FAR 16.505 requires the
contracting officer to document the basis for contract award. By passing the contractor
selection decision on to DoD program officials, the NIH contracting officer failed to meet
this requirement.

Recommendations, Management Comments, and Our
Response
B.1. We recommend that the Commander, Software Engineering Center-Belvoir
not exercise the next option for order 2524 through the Chief Information Officer-
Solutions and Partners 2 Innovations multiple-award contract and either:
        a. Require individual task orders for each customer against an existing
multiple-award contract; or
        b. Have a DoD contracting office award a multiple-award contract on behalf
of the Software Engineering Center-Belvoir and issue individual task orders for
each customer against the contract.




                                            31
Software Engineering Center-Belvoir Comments
The Commander of the Software Engineering Center-Belvoir provided comments that
met the intent of the recommendations. The Commander stated the Software Engineering
Center-Belvoir is participating in the creation of an indefinite-delivery, indefinite-
quantity multiyear contract. Until that contract is awarded, the Center has developed two
additional task orders through the National Institutes of Health to supplement task
order 2524 for the final option year. In addition, the Software Engineering Center-
Belvoir has added CORs to help support the efforts on those task orders.

Our Response
The comments of the Commander, Software Engineering Center-Belvoir were
responsive. No additional comments are needed.

B.2. We recommend that the Director, Defense Intelligence Agency not exercise the
next option for order 2520 through the Chief Information Officer-Solutions and
Partners 2 Innovations multiple-award contract and instead recompete the
requirement.

DIA Comments Required
The Defense Intelligence Agency Director did not comment on the recommendation. We
request that the Director provide comments in response to the final report.




                                           32
Finding C. Funding Analysis
When using direct acquisition, DoD officials did not comply with appropriation laws and
regulations for 3 of the 34 direct acquisitions we reviewed, causing potential BFNR
violations totaling $845,508.

Similarly, DoD and NIH officials did not comply with funding laws and regulations on
13 of the 24 assisted acquisitions we reviewed. Of the 13 orders, we identified:
     10 orders with potential BFNR violations totaling $12.2 million ($3.5 million
        worth of potential BFNR violations on 6 of the 10 orders were not corrected, but
        violations on the remaining 4 orders were corrected);
     1 order with a potential Purpose Statute violation totaling $455,087; and
     2 orders with potential Antideficiency Act violations totaling $53,601.

Also, 4 of the 24 orders did not have potential violations, but had funds remaining that
were expired and should be deobligated. The remaining seven orders had no funding
deficiencies.

In addition, we identified one task order the General Services Administration awarded on
behalf of DoD using the CIO-SP2i multiple-award contract that contained similar
problems. See Appendix C for a discussion of this task order.

DoD and NIH officials were either unaware of, did not follow, or misinterpreted funding
regulations. As a result, DoD’s use of funds was inconsistent with the uses and
limitations of fund authority mandated by Congress.

Direct Acquisitions
We analyzed the funding for 34 orders awarded by DoD with total obligations of
$221.0 million. We reviewed the orders to determine whether the funds obligated on the
orders were the appropriate type and whether the purchase represented a bona fide need
in the fiscal year for which the funds were appropriated. Using the wrong appropriation
would violate the Purpose Statute, and not using funds valid for use when the goods or
services are actually needed would violate the BFNR. We identified $845,508 in
potential BFNR violations on three orders. See Appendix D, Table D-1, for a summary
of the funding analysis for each order.

The BFNR is codified in section 1502, title 31, United States Code (31 U.S.C. 1502),
“Balances available,” which states, “The balance of an appropriation or fund limited for
obligation to a definite period is available only for payment of expenses properly incurred
during the period of availability.” BFNR violations may cause Antideficiency Act
violations. Also, 31 U.S.C. 1501, “Documentary evidence requirement for Government
obligations,” requires a written binding agreement between two agencies for an
obligation to occur.




                                            33
Purchasing Goods—Delivery Orders
We identified $345,613 in potential BFNR violations on two delivery orders. DoD
officials caused the potential violations by scheduling the delivery of goods in a fiscal
year subsequent to the period in which the funds were available for use. This
demonstrates that the goods were not needed in the fiscal year of the funds.

Both the Government Accountability Office Principles of Federal Appropriations Law
(commonly known as the Red Book), third edition, volume I, chapter 5, section B.4,
“Delivery of Materials beyond the Fiscal Year,” and the Under Secretary of Defense
(Comptroller)/Chief Financial Officer memorandum, “Non-Economy Act Orders,”
October 16, 2006, discuss delivery of goods in a year subsequent to the funds’ expiration.
The memorandum states that delivery is permitted as long as “the time intervening
between contracting and delivery is not excessive and the procurement is not for standard
commercial off the shelf (COTS) items readily available from other sources.” The
memorandum also states, “The delivery of goods may not be specified to occur in the
year subsequent to the funds’ availability.” Therefore, all readily available commercial
goods purchased with funds having a limited availability must be delivered within the
period of the funds’ availability.

For two delivery orders, one awarded by the Army Contracting Agency, W91QV1-07-F-
2M06, and one awarded by the Space and Naval Warfare Systems Center Atlantic,
N65236-06-F-3817, DoD contracting officers scheduled the delivery of commercial off-
the-shelf goods in a fiscal year subsequent to the funds’ expiration. DoD scheduled
delivery of the goods purchased on W91QV1-07-F-2M06 for October 18, 2007, using
FY 2007 O&M funds, which expired on September 30, 2007. DoD scheduled delivery of
the goods on N65236-07-F-3817 for October 25, 2006, using FY 2006 O&M funds,
which expired on September 30, 2006. Therefore, both orders potentially violated the
BFNR. Order W91QV1-07-F-2M06 had a potential BFNR violation of $178,202 and
N65236-07-F-3817 had a potential BFNR violation of $167,411, for a total potential
BFNR violation of $345,613.

Purchasing Services—Task Orders
As discussed in finding B, we identified $499,895 in a potential BFNR violation on one
task order. The potential BFNR violation exists because the contractor started
performing the contracted work after the funds had expired.

In addition to 31 U.S.C. 1502 mentioned previously, 10 U.S.C. 2410a, “Contracts for
periods crossing fiscal years: severable services contracts; leases of real or personal
property,” states that DoD can enter into a contract for procurement of severable services
for a period that begins in one fiscal year and ends in the next fiscal year if (without
regard to any option to extend the period of performance of the contract) the contract
period of performance does not exceed 1 year. To meet these requirements, the Office of
the Under Secretary of Defense (Comptroller)/Chief Financial Officer issued “Non-
Economy Act Orders” on October 16, 2006, specifying that funds for severable services
must be obligated and performance started during the funds’ period of availability.



                                             34
Also, 31 U.S.C. 1501 requires a binding written agreement between two agencies in order
for an obligation to occur.

The DLA Defense Distribution Center’s Acquisitions Directorate awarded order SP1300-
07-F-0454 on September 29, 2007, for $499,895 on the CIO-SP2i contract. The
customer for the order was the DLA Automatic Identification Technology office. The
customer provided FY 2007 O&M funds for the task order. O&M funds are available for
obligation for 1 year. These O&M funds expired on September 30, 2007. Therefore, the
task order was required to have a period of performance beginning no later than
September 30, 2007. Although the task order listed a period of performance beginning
on September 29, 2007, the contractor did not actually begin working on this order until
March 2008. We believe this requirement was for FY 2008 and should have been funded
accordingly. To eliminate a potential BFNR violation, the FY 2007 O&M funds should
be deobligated, and FY 2008 O&M funds should be provided by the DoD customer.

The contracting officials stated that they mistakenly believed that the order was funded
with FY 2007 research, development, test, and evaluation funds, which have a longer
availability period than O&M funds. When we informed the contracting officials that the
funds were O&M, they immediately realized that using those funds to pay for the work
performed in FY 2008 would violate the BFNR, and they issued a stop-work order the
following day. In addition, we met with officials from the DLA Automatic Identification
Technology office, the customer, who stated that they understood that the funds
originally provided should not be used and that they were attempting to find available
funds to pay for the approximately $50,000 in work performed prior to the contracting
officials’ issuance of the stop-work order.

If DLA officials cannot provide the FY 2008 O&M funds to pay for this work, a BFNR
violation will occur.

Assisted Acquisitions
We analyzed the funding for 24 task orders awarded by NIH with total obligations of
$286.2 million. We reviewed the orders to determine whether funds needed to be
obligated or deobligated, which included determining whether there were potential
BFNR, Purpose Statute, or Antideficiency Act violations. We identified $3.5 million in
potential BFNR violations, $455,000 in potential Purpose Statute violations, $54,000 in
potential Antideficiency Act violations, $5.6 million in funds that DoD should ask NIH to
deobligate, and $2.2 million in funds that DoD should provide to NIH. See Appendix D,
Table D-2, for a summary of the funding analysis for each order.

Bona Fide Needs Rule
NIH officials paid contractors $12.2 million for work performed outside the funds’ period
of availability for 10 task orders, resulting in potential BFNR violations. In our previous
audit of DoD use of the NIH contracts, DoD IG Report No. D-2008-022, we reported
potential BFNR violations. The U.S. Department of Health and Human Services Office
of the IG, the IG for NIH, also reported potential BFNR violations in its audit. In an
attempt to correct some of these violations, NIH and DoD officials deobligated funds. As


                                            35
of June 1, 2008, NIH and DoD officials had not corrected $3.5 million in potential BFNR
violations for six task orders. See Appendix E for a detailed description of each of the 10
task orders with potential BFNR violations.

The $12.2 million in potential violations occurred when NIH used funds to pay for work
performed outside the funds’ period of availability. Typically, the correct funds were
provided on the task order. However, in most cases, funds remaining after a period of
performance were not deobligated even if those funds were expired. Instead, NIH used
the expired funds to pay for work performed in later periods. Appropriated funds have a
limited period of availability when they can be used to pay for services. Using
appropriated funds to pay for work performed outside of their period of availability
violates the BFNR. As previously noted, the BFNR is codified in 31 U.S.C. 1502, which
states, “The balance of an appropriation or fund limited for obligation to a definite period
is available only for payment of expenses properly incurred during the period of
availability.” BFNR violations may cause Antideficiency Act violations.

Both 10 U.S.C. 2410a and the Office of the Under Secretary of Defense (Comptroller)/
Chief Financial Officer memorandum, “Non-Economy Act Orders,” issued on
October 16, 2006, allow funds to cross fiscal years for severable service contracts with
periods of performance not to exceed 1 year as long as the funds are obligated during
their period of availability. In addition, 31 U.S.C. 1501 requires a binding written
agreement between two agencies for an obligation to occur.

In our previous NIH report, D-2008-022, we reported eight orders with potential BFNR
violations that were not corrected. Each of these eight orders was awarded on the
CIO-SP2i multiple-award contract and is discussed in this report in Appendix E. We
determined from our review of these eight orders that:
     no funds were returned to correct the potential BFNR violations for four orders,
     the incorrect amount and type of funds were returned for one order, and
     the correct amount and type of funds were returned for the remaining three orders.
Orders for which no funds were returned were orders 2204, 2315, 2377, and 2380. We
believe that potential BFNR violations of $3 million remain for these four orders.

The Under Secretary of Defense (Comptroller)/Chief Financial Officer stated in
comments on DoD IG Report No. D-2008-082, “Summary Report on Potential
Antideficiency Act Violations Resulting From DoD Purchases Made Through Non-DoD
Agencies (FY 2004 Through FY 2007),” April 25, 2008, that the office would “monitor
all potential ADA [Antideficiency Act] violation cases arising from interagency
agreements.” Although the Under Secretary of Defense (Comptroller)/Chief Financial
Office (Comptroller’s Office) initially contacted DoD organizations about the potential
BFNR violations, the Comptroller’s Office did not follow up to ensure appropriate
actions were taken. For the four orders described above, the Comptroller’s Office did not
have records of the BFNR violations in its tracking system. In addition, the
Comptroller’s Office could not explain why the potential BFNR violations for those four
orders were not investigated.




                                             36
The Under Secretary of Defense (Comptroller)/Chief Financial Officer should direct DoD
organizations that have provided funding to NIH to work with NIH to deobligate expired
funds, obligate funds to cover all work performed, and correct potential BFNR violations.
The Under Secretary of Defense (Comptroller)/Chief Financial Officer should also ensure
that DoD organizations are notified of potential BFNR violations and that those
organizations take the appropriate steps to resolve the BFNR violations. In addition, the
Under Secretary of Defense (Comptroller)/Chief Financial Officer should determine how
its office failed to follow up on four of the BFNR violations reported last year and take
action to ensure such an oversight does not happen in the future.

Purpose Statute
For task order 2412, NIH officials obligated $455,087 in Procurement funds provided by
the Air Force Office of the Deputy Chief of Staff for Operations, Plans, and
Requirements, resulting in a potential Purpose Statute violation that may violate the
Antideficiency Act.

The Purpose Statute is codified in 31 U.S.C. 1301, “Application,” which states,
“Appropriations shall be applied only to the objects for which the appropriations were
made except as otherwise provided by law,” meaning that appropriations should be used
for their intended purposes. Purpose Statute violations may cause Antideficiency Act
violations.

The DoD Financial Management Regulation, volume 2A, chapter 1 provides guidelines
for determining the correct appropriation to use when planning acquisitions.
Section 010201 provides guidance on determining whether a purchase is an investment or
an expense. Expenses are defined as “costs of resources consumed in operating and
maintaining the Department of Defense,” and investments are defined as “costs to acquire
capital assets such as real property and equipment.” This section of the Financial
Management Regulation also states that O&M funds should be used for expenses and that
Procurement funds should be used for investments.

Task order 2412 was for services, which are expenses. Therefore, it was inappropriate
for the Air Force Office of the Deputy Chief of Staff for Operations, Plans, and
Requirements to provide Procurement funds for this task order. To correct this potential
Purpose Statute violation, the Air Force Office of the Deputy Chief of Staff for
Operations, Plans, and Requirements should request that NIH deobligate:
      MIPR F1AFH5252G002 Basic providing FY 2005 Procurement funds, of which
         NIH obligated $248,784 for services; and
      MIPR F1AF1H6167G001 Basic providing FY 2006 Procurement funds, of which
         NIH obligated $206,302 for services.
 After NIH deobligates these funds, there will not be enough funds to cover all work
 performed in option 1. Therefore, the Air Force Office of the Deputy Chief of Staff for
 Operations, Plans, and Requirements should provide NIH with an additional $462,220 in
 FY 2006 or FY 2007 O&M funds (the option 1 period of performance—July 1, 2006,
 through June 30, 2007—crosses FY 2006 and FY 2007).



                                           37
The Under Secretary of Defense (Comptroller)/Chief Financial Officer should direct the
Air Force Office of the Deputy Chief of Staff for Operations, Plans, and Requirements to
provide O&M funds in lieu of the Procurement funds already provided. This potential
Purpose Statute violation may violate the Antideficiency Act.

Antideficiency Act
NIH officials paid contractors $53,601 for work performed prior to the funds’ period of
availability for two task orders, resulting in potential Antideficiency Act violations. As
of June 1, 2008, NIH and DoD officials had not corrected these violations.

The Antideficiency Act is codified in 31 U.S.C. 1341, “Limitations on expending and
obligating amounts.” Section (a)(1)(B) states that the Government may not get involved
in a contract or obligation for the payment of money before an appropriation is made,
unless authorized by law. Therefore, funds obligated on a task order should be available
to pay for work performed at the start of that task order’s period of performance.

In addition, one of the orders was firm-fixed-price. The DoD Financial Management
Regulation, volume 3, chapter 8, section 080501 requires that an obligation be recorded
for the total amount stated in the contract at the time it is executed. Therefore, DoD has
provided and NIH should have obligated the full fixed-price amount when awarding the
task order and when exercising an option.

Task Order 2409
NIH awarded task order 2409 on behalf of the U.S. Army Special Operations Command
on September 15, 2005. The task order’s period of performance consisted of a 1-year
base period and four 1-year option periods. Option 1 ended on September 14, 2007.
From the base through option 1, NIH obligated $5.6 million in O&M funds provided by
the U.S. Army Special Operations Command. NIH used $27,548 in FY 2007 O&M
funds to pay for work performed outside of the funds’ period of availability, causing a
potential Antideficiency Act violation.

DoD funded the base period, September 15, 2005, through September 14, 2006, with
$3.7 million in FY 2005 and FY 2006 O&M funds. When DoD funded the option 1
period, it did not comply with the Antideficiency Act; the officials did not obligate funds
appropriate to pay for work performed at the start of option 1, which began in FY 2006.
By not obligating FY 2006 funds upon exercising the option, U.S. Army Special
Operations Command and NIH caused a potential Antideficiency Act violation.

DoD funded the option 1 period, September 15, 2006, through September 14, 2007, with
$1.9 million in FY 2007 O&M funds. However, $27,548 of work invoiced was
performed in FY 2006, from September 16 through September 30, 2006. This $27,548 of
work was incurred during the option 1 period, but could not be paid with FY 2007 O&M
funds. FY 2007 O&M funds were not available for obligation until October 1, 2006.
Therefore, to properly pay for that FY 2006 work, DoD needed to provide NIH with
FY 2006 O&M funds of $27,548. This $27,548 is a potential Antideficiency Act
violation.


                                            38
The total invoices for work performed during option 1 totaled $1.5 million. Excluding
the $27,548, FY 2007 O&M funds amounting to $338,582 remain.

As of June 1, 2008, NIH had not corrected this potential violation. To do so, the
U.S. Army Special Operations Command should provide NIH with $27,548 in FY 2006
O&M funds. In addition, to prevent further misuse of expired funds, U.S. Army Special
Operations Command should request that NIH deobligate $338,582 in FY 2007 O&M
funds.

Task Order 2430
NIH awarded task order 2430 on behalf of the Office of the Assistant Secretary of
Defense for Homeland Defense on September 12, 2005. The task order’s period of
performance consisted of a 1-year base period and two 1-year option periods. Option 1
ended on September 11, 2007. From the base through option 1, NIH obligated $986,918
in O&M funds provided by the Office of the Assistant Secretary of Defense for
Homeland Defense. NIH used $26,053 in FY 2007 O&M funds to pay for work
performed outside of the funds’ period of availability, causing a potential Antideficiency
Act violation.

DoD funded the base period, September 12, 2005, through September 11, 2006, with
$485,057 in FY 2005 O&M funds. However, when DoD funded the option 1 period, it
did not comply with the DoD Financial Management Regulation or the Antideficiency
Act. Officials did not obligate any option 1 funding at the time NIH exercised the option.
By not obligating funds for the full fixed-price amount, the Office of the Assistant
Secretary of Defense for Homeland Defense and NIH caused a potential Antideficiency
Act violation.

DoD funded the option 1 period, September 12, 2006, through September 11, 2007, with
$501,861 in FY 2007 O&M funds. However, $26,053 of work invoiced was performed
in FY 2006, from September 12 through September 30, 2006. This $26,053 of work was
incurred during the option 1 period, but could not be paid with FY 2007 O&M funds.
FY 2007 O&M funds are not available for obligation until October 1, 2006. Therefore, to
properly pay for that FY 2006 work, DoD needed to provide NIH with FY 2006 O&M
funds of $26,053. This $26,053 is a potential Antideficiency Act violation.

As of June 1, 2008, NIH had not corrected this potential violation. To correct this
potential violation and cover the cost of all work performed from the base through
option 1, the Office of the Assistant Secretary of Defense for Homeland Defense should
request that NIH deobligate $26,053 in FY 2007 O&M funds and should provide NIH
with $26,053 in FY 2006 O&M funds.

Additional Deobligations
In addition to the deobligations discussed in the “Bona Fide Needs Rule,” “Purpose
Statute,” and “Antideficiency Act” sections of this report, there is an additional $781,255
in expired funds on four orders that DoD should request NIH to deobligate. For three of


                                            39
these orders, if NIH does not deobligate these funds and uses them to pay for work
performed outside their period of availability, it will potentially cause additional BFNR
violations.

Task Order 2311
NIH awarded task order 2311 on behalf of Air Force Materiel Command A6 on April 30,
2004. The task order ended on December 31, 2007. Over the life of the task order, NIH
obligated $761,606 in Defense Working Capital funds provided by Air Force Materiel
Command A6. After paying for all work performed for the task order, Air Force Materiel
Command A6 had $92,942 in Defense Working Capital funds remaining that it should
request NIH to deobligate.

Task Order 2331
NIH awarded task order 2331 on behalf of the Defense Manpower Data Center on
November 5, 2004. The task order’s period of performance consisted of a 1-year base
period and five 1-year option periods. Option 2 ended on November 4, 2007. From the
base through option 2, NIH obligated $10.6 million3 in O&M funds provided by the
Defense Manpower Data Center.

DoD funded the base period, November 5, 2004, through November 4, 2005, with
$4.5 million in FY 2005 O&M funds. The invoices for work performed during the base
period totaled $4.5 million. FY 2005 O&M funds of $4,888 remained. However, on
modification 8, which was effective September 15, 2006, NIH deobligated $21,383 in
FY 2005 O&M funds tied to the base, which was $16,496 too much.

DoD funded the option 1 period, November 5, 2005, through November 4, 2006, with
$3.2 million in FY 2006 O&M funds. The invoices for work performed during the base
period totaled $3.1 million. FY 2006 O&M funds of $17,839 remained. FY 2006 O&M
funds were available for obligation during the base period. Therefore, the remaining
FY 2006 O&M funds tied to option 1 offset the excessive deobligation from the base,
leaving $1,343 in FY 2006 O&M funds to be deobligated.

DoD funded the option 2 period, November 5, 2006, through November 4, 2007, with
$3 million in FY 2007 O&M funds. The invoices for work performed during that time
totaled $3 million. There are no remaining funds.

The Defense Manpower Data Center should request that NIH deobligate $1,343 in
FY 2006 O&M funds. If NIH and DoD fail to deobligate the $1,343 in FY 2006 O&M
funds and instead use them to pay for work performed outside their period of availability,
NIH and DoD will potentially violate the BFNR.




3
    The sum of base and option period funding differs from $10.6 million due to rounding.


                                                     40
Task Order 2376
NIH awarded task order 2376 on behalf of the Defense Manpower Data Center on
March 4, 2005. The task order’s period of performance consisted of a 1-year base period
and four 1-year option periods. Option 2 ended on March 3, 2008. From the base
through option 2, NIH obligated $21.0 million in O&M funds provided by the Defense
Manpower Data Center.

DoD funded the base period, March 4, 2005, through March 3, 2006, with $6.3 million in
FY 2005 O&M funds. The invoices for work performed during that time totaled
$5.6 million. FY 2005 O&M funds of $705,499 remained. On modification 7, which
was effective November 20, 2006, NIH deobligated these funds.

DoD funded the option 1 period, March 4, 2006, through March 3, 2007, with $7 million
in FY 2006 O&M funds. The invoices for work performed during that time totaled
$6.8 million. FY 2006 O&M funds of $219,942 remained.

DoD funded the option 2 period, March 4, 2007, through March 3, 2008, with
$7.7 million in FY 2007 O&M funds. The invoices for work performed during that time
totaled $7.3 million. FY 2007 O&M funds of $390,581 remained.

The Defense Manpower Data Center should request that NIH deobligate $219,942 in
FY 2006 O&M funds and $390,581 in FY 2007 O&M funds. If NIH and DoD fail to
deobligate these funds and instead use them to pay for work performed outside their
period of availability, NIH and DoD will potentially violate the BFNR.

Task Order 2519
NIH awarded task order 2519 on behalf of the Office of the Assistant Secretary of
Defense (Networks and Information Integration)/DoD Chief Information Officer on
September 28, 2006. The task order’s period of performance consisted of a 1-year base
period and four 1-year option periods. The base ended on September 27, 2007.

DoD funded the base period, September 28, 2006, through September 27, 2007, with
$325,854 in FY 2006 and FY 2007 O&M funds. Although the base period of
performance ended on September 27, 2007, the FY 2007 O&M funds provided by DoD
could be used until September 30, 2007. The invoices for work performed during the
base through September 30, 2007, amounted to $249,407. FY 2006 or FY 2007 O&M
funds of $76,447 remained.

The Office of the Assistant Secretary of Defense (Networks and Information
Integration)/DoD Chief Information Officer should request that NIH deobligate FY 2006
or FY 2007 O&M funds of $76,447. If NIH and DoD fail to deobligate these funds and
instead use them to pay for work performed outside their period of availability, NIH and
DoD will potentially violate the BFNR.




                                           41
The Under Secretary of Defense (Comptroller)/Chief Financial Officer should direct DoD
organizations that have provided funding to NIH to work with NIH to deobligate expired
funds and obligate funds to cover all work performed.

Summary
The potential BFNR and Purpose Statute violations occurred primarily because NIH and
DoD officials did not know, misinterpreted, or did not follow the regulations related to
funding. In addition, DoD CORs did not adequately keep track of funds sent to NIH and
the balance of those funds as they approved invoices. As a result, funds were not used
for the purposes mandated by Congress.

Management Comments on the Finding and Our
Response
The Commanding Officer, Space and Naval Warfare Systems Center Atlantic provided
comments on the finding.

Space and Naval Warfare Systems Center Atlantic Comments
The Commanding Officer stated that the Space and Naval Warfare Systems Center
Atlantic performed a review of the potential bona fide needs rule violation for delivery
order N65236-06-F-3817. The review concluded that there was a need for the purchased
items during the year of the funds’ availability and that the lead time for producing the
items was 2 to 4 weeks. The Center does not believe that a potential BFNR violation
occurred.

Our Response
Both the Government Accountability Office’s Principles of Federal Appropriations Law
(commonly known as the Red Book), third edition, volume I, chapter 5, section B.4,
“Delivery of Materials beyond the Fiscal Year,” and the Under Secretary of Defense
(Comptroller)/Chief Financial Officer memorandum, “Non-Economy Act Orders,”
October 16, 2006, discuss delivery of goods in a year subsequent to the funds’ expiration.
The memorandum states that delivery is permitted as long as “the time intervening
between contracting and delivery is not excessive and the procurement is not for standard
commercial off the shelf (COTS) items readily available from other sources.” Delivery
order N65236-06-F-3817 was on one of the ECS III multiple-award contracts, and all
items available on ECS III are considered to be COTS. The memorandum also states,
“The delivery of goods may not be specified to occur in the year subsequent to the funds’
availability.” Therefore, all COTS goods purchased with funds having a limited
availability must be delivered within the period of the funds’ availability. Based on these
policies, we believe that order N65235-06-F-3817 is a violation of the BFNR.

Unsolicited Management Comments on the Finding and
Our Response
Although not required to comment, the Chief of Staff of the U.S. Army Special
Operations Command provided the following comments on the finding. Our


                                            42
recommendation for this finding was directed to the Under Secretary of Defense
(Comptroller)/Chief Financial Officer with the intent to work with all DoD activities
identified during our audit to fix any funding problems. We did not make
recommendations to each individual command. For the full text of the U.S. Army
Special Operations Command comments, see the Management Comments section of the
report. In addition, although not required to comment, the NIH Office of Management
Assessment provided unofficial comments on the finding. For the full text of the NIH
comments, see the Management Comments section of the report.

U.S. Army Special Operations Command Comments
The Chief of Staff for the U.S. Army Special Operations Command stated that the
Command did not provide all of the $5.6 million in funds that NIH obligated on task
order 2409. The Chief of Staff stated that the funds came from multiple sources.

In addition, the Chief of Staff stated that there was no potential Antideficiency Act
violation based on documentation the U.S. Army Special Operations Command obtained
from the National Institutes of Health showing that the funds in question were actually
FY 2007 monies.

The Chief of Staff reported that the Command asked NIH on January 22, 2009, to return
$311,095.27 in remaining FY 2007 funds for deobligation.

Our Response
We stated in the report that U.S. Army Special Operations Command provided the funds
associated with the task order because the U.S. Army Special Operations Command is the
customer for the task order. The statement of work is titled “U.S. Army Special
Operations Command (USASOC) Strategic Support Program” and indicates that work
will be performed at the Command in Fort Bragg, North Carolina. In addition, the task
order identifies a U.S. Army Special Operations Command employee as the contracting
officer’s representative for the task order. Although individual MIPRs came from several
sources, the U.S. Army Special Operations Command is the overall customer for this task
order, which is why we listed it as providing the funds for the task order.

The Chief of Staff has not yet demonstrated that there was no Antideficiency Act
violation. FY 2007 O&M funds totaling $27,548 were used to pay for work performed
from September 16 through September 30, 2006. As stated in the finding, FY 2007
O&M funds cannot be used to pay for work performed in FY 2006 because that work was
performed prior to the funds’ period of availability, and funds can be used only to pay for
work performed during the funds’ period of availability. Therefore, any work performed
in FY 2007 should be paid for with FY 2007 funds. Work performed prior to FY 2007
should not be funded with FY 2007 O&M funds. If FY 2006 O&M funds had been used
to pay for the $27,578 in work performed from September 16 through September 30,
2006, there would not have been a potential violation. However, NIH obligated
$3,701,127 of FY 2005 and FY 2006 funds on the task order during the base period, and
the contractor invoiced $3,701,066 of work performed during the base period. This left a
remainder of only $61. The only funds that could have been used to pay for the work


                                            43
performed from September 16 through September 30, 2006, were FY 2006 O&M funds.
Use of the FY 2007 funds to pay for work performed during the period in question is not
permitted and potentially violates the Antideficiency Act.

National Institutes of Health Comments
NIH stated that the NIH Information Technology Acquisition and Assessment Center is
currently working with DoD customers to correct funding issues and that it relied on DoD
customers to provide appropriate funding. NIH disagreed with our statement that task
order 2409 resulted in an Antideficiency Act violation because the Army Special
Operations Command provided records to the DoD OIG that showed the contractor’s
performance was during the period for which the funds were expended.

Our Response
The Assistant Deputy Under Secretary of Defense (Financial Management), representing
the Under Secretary of Defense (Comptroller)/Chief Financial Officer, stated that the
Office of the the Under Secretary of Defense (Comptroller)/Chief Financial Officer also
is working with DoD customers to rectify the funding issues. See the comments below.
We continue to believe that it is the responsibility of both the sending and receiving
offices to ensure that proper funds are used for purchases. For task order 2409, see our
response to the U.S. Army Special Operations Command comments.

Recommendations, Management Comments, and Our
Response
C. We recommend that the Under Secretary of Defense (Comptroller)/Chief
Financial Officer:
        1. Instruct DoD organizations that provided funds to the National Institutes
of Health for assisted acquisition, including the Defense Acquisition University
discussed in Appendix C, to work with National Institutes of Health officials to
determine funds needing to be obligated and deobligated to correct potential bona
fide needs rule violations, address potential Purpose Statute violations, correct
potential Antideficiency Act violations, prevent the misuse of and return expired
funds, and fully cover the cost of all work performed.
        2. Verify that DoD organizations properly and accurately address the
funding issues identified above. If funds are not available to correct the potential
bona fide needs rule violations, the Under Secretary of Defense (Comptroller)/Chief
Financial Officer should initiate preliminary reviews for potential Antideficiency
Act violations.
        3. Determine why staff in the Office of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer did not follow up on four bona fide need rule
violations reported last year, and take action to ensure such an oversight does not
happen in the future.




                                           44
Under Secretary of Defense (Comptroller)/Chief Financial Officer
Comments
The Assistant Deputy Under Secretary of Defense (Financial Management) agreed with
the recommendations. The Assistant Deputy Under Secretary of Defense (Financial
Management) stated that the Office of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer would work with both the National Institutes of
Health and DoD Components to identify funds to be obligated and deobligated, track the
progress of actions taken to address funding issues, and determine why the office did not
follow up on four previously reported bona fide needs rule violations. Additionally, the
Office of the Under Secretary of Defense (Comptroller)/Chief Financial Officer
established a single accountable official, within the Business Integration Office, who is
responsible for entering and reconciling potential Antideficiency Act cases.

Our Response
The comments of the Assistant Deputy Under Secretary of Defense (Financial
Management) were responsive. No additional comments are needed.




                                           45
46
Appendix A. Scope and Methodology
We conducted this audit from September 2007 through October 2008 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.

We performed the audit as required by section 817 of Public Law 109-364, “John
Warner National Defense Authorization Act for FY 2007,” October 17, 2006 (the Act).
The Act requires the Inspector General of the Department of Defense and the Department
of Health and Human Services to conduct a joint review of interagency transactions
between DoD and the National Institutes of Health (NIH). We reviewed DoD use of the
NIH Electronic Commodities Store III (ECS III), Chief Information Officer-Solutions
and Partners 2 Innovations (CIO-SP2i), and Image World 2 new dimensions (IW2nd)
multiple-award contracting vehicles. The ECS III multiple-award contracting vehicle
consisted of 65 contracts that were categorized into 6 information technology lots. The
CIO-SP2i multiple-award contracting vehicle consisted of 48 contracts that were
categorized into 9 information technology task areas. The IW2nd multiple-award
contracting vehicle consisted of 24 contracts that were categorized into 3 information
technology functional areas. The ECS III, CIO-SP2i, and IW2nd are multiple-award
contracts that provide Government agencies access to information technology products
and services.

Direct Acquisitions
We did not jointly review delivery order contracts with the Health and Human Services
Office of the Inspector General because the interagency purchases were made through
direct acquisition. That is, DoD contracting officials made all award decisions and funds
for those purchases remained within DoD for ECS III delivery orders; as a result, NIH
contracting, financial, and accounting officials had no involvement in the award process.
However, for CIO-SP2i and IW2nd contracts where a task order for services is awarded,
an NIH contracting officer must review the statement of work to determine whether the
work is within the scope of the contract and NIH issues the request for proposal.

Our primary source for the FY 2007 direct acquisitions made through NIH on the ECS III
multiple-award contract was the Electronic Document Access (EDA) System. The EDA
system is an online document access system that provides acquisition related information
for use by all of the DoD. To supplement the data obtained through the EDA system,
NIH provided us with a list of all FY 2007 direct purchases.

ECS III Orders
We limited our scope of ECS III orders to those with values greater than $100,000.
Based on the EDA system, we identified 37 ECS III orders awarded in FY 2007 for
amounts greater than $100,000 and with a total value of $17.0 million. Using the data


                                           47
provided by NIH, we identified an additional 12 orders awarded in FY 2007 for amounts
greater than $100,000 and with a total value of $2.7 million. Therefore, our total scope
for FY 2007 ECS III orders greater than $100,000 was 49 orders with a total value of
$19.7 million.

In addition, we included 22 FY 2006 ECS III orders in our scope that had values greater
than $100,000 and a total value of $5.5 million. We included these orders because they
were not identified by NIH in our previous audit and:
     for 17 of the orders, valued at $4.2 million, the delivery of goods was scheduled
        for FY 2007,
     for two of the orders, valued at $459,485, there were funds provided in FY 2007
        to modify the order, and
     for three of the orders, valued at $791,921, the period of performance extended
        into FY 2007.

We also included one order awarded in FY 2003 that was funded in FY 2007 to extend an
option. The value of that order was $3 million.

Ultimately, we identified 72 ECS III orders valued over $100,000 with a total price
$28.1 million. Based on dollar value and geographic location, we reviewed 29 of these
delivery orders with a total value of $16.8 million.

CIO-SP2i Orders
We used the same method to identify direct CIO-SP2i orders and we included orders
awarded in fiscal years other than FY 2007. Through the EDA system, we identified two
CIO-SP2i orders awarded for amounts greater than $100,000 with a total value of
$49.4 million. Using the data provided by NIH, we identified an additional order valued
at $1.5 million. In addition, while conducting a site visit at NIH, we identified two
additional CIO-SP2i orders awarded at the end of FY 2007 and valued at $1.2 million.
Therefore, our total scope for CIO-SP2i orders was five orders with a current total value
of $52.1 million.

Based on dollar value and geographic location, we reviewed four of these task orders,
which had a potential total value of $198.4 million at the time of review.

IW2nd Order
We used the same method to identify direct IW2nd orders. Through the EDA system, we
identified one IW2nd order with a modified value of $5.7 million. Although the order
was awarded in FY 2005, funds totaling $99,814 were provided in FY 2007. This was
the only order in our scope for the IW2nd multiple-award contract. Based on dollar value
and geographic location, we reviewed this order.




                                           48
Methodology for Review of Direct Acquisitions
For 34 direct acquisitions, we reviewed the order files maintained by DoD contracting
offices, and any files maintained by NIH for task orders, to determine whether:
      DoD contracting officers provided a fair opportunity to contractors and
         documented source selection in accordance with Federal Acquisition
         Regulation 16.505;
      DoD contracting officers or program officials adequately justified the use of a
         non-DoD contract for purchases in accordance with Defense Federal Acquisition
         Regulation Supplement Subpart 217.7802;
      DoD officials used the appropriate fund type for the items purchased in
         accordance with Purpose Statute, 31 U.S.C. 1301; and
      DoD had a bona fide need for the requirement in accordance with
         31 U.S.C. 1502.
We interviewed DoD contracting officers, contracting specialists, and program officials
involved in the procurement process.

Assisted Acquisitions
We jointly reviewed assisted acquisitions with the Health and Human Services Office of
the Inspector General. The assisted acquisitions were purchases made by NIH
contracting officers on DoD’s behalf, so NIH contracting personnel were involved with
the award process.

CIO-SP2i Orders Awarded by NIH
NIH identified the assisted acquisitions where DoD provided funding in FY 2007. We
included in our scope both orders that were awarded in FY 2007 as well as purchases
originally awarded before FY 2007 that provided funding during FY 2007. Based on the
information received from NIH, in FY 2007 DoD provided funding or deobligated funds
for 31 assisted acquisitions. The total funding received was $107.7 million. All 31
orders were made using NIH’s CIO-SP2i multiple-award contract. We reduced the scope
by three orders because:
     two of the orders did not provide any funding, but deobligated less than $5,000
        each; and
     the third order had an obligation and deobligation for the same amount, making
        the total funds provided in FY 2007 for that order equal $0.
Therefore, our final scope was 28 orders with $107.7 million in funds provided or
deobligated in FY 2007.

Of these 28 orders:
     22 orders with $74.7 million in funds provided during FY 2007 were reviewed
       during last year’s audit, so during this audit we conducted a review of funding
       only and did not review the award procedures and administration of these orders;
     1 order with $1.4 million in funds deobligated during FY 2007 was reviewed
       during last year’s audit, so during this audit we conducted a review of funding
       only and did not review the award procedures and administration of this order;
       and


                                          49
      5 orders with $34.4 million in funds provided during FY 2007, were not reviewed
       during last year’s audit, so we conducted a full review of these 5 orders to include
       funding, award procedures, and contract administration.

CIO-SP2i Order Awarded by the General Services Administration
In addition to the above assisted acquisitions, NIH identified one task order awarded by
the General Services Administration with a total value of $3.2 million. The General
Services Administration awarded this order on behalf of DoD by using the CIO-SP2i
multiple-award contract. Therefore, DoD provided its funds for this requirement to the
General Services Administration and the General Services Administration acted as the
contracting office for the requirement. However, as required with all orders awarded on
the CIO-SP2i multiple-award contract, NIH reviewed the statement of work and issued
the request for proposal. We conducted a full review of this order.

Methodology for Review of Assisted Acquisitions
For six assisted acquisitions, we reviewed the order files maintained by DoD program
offices, the NIH contracting office, and the General Services Administration contracting
office, to determine whether:
     NIH contracting officers provided a fair opportunity to contractors in accordance
         with FAR 16.505;
     NIH and General Services Administration contracting officers documented source
         selection in accordance with FAR 16.505;
     DoD program officials, NIH contracting officers, and General Services
         Administration contracting officers documented their bid analysis, including price
         reasonableness of the awardee’s proposal, and whether DoD recommended the
         appropriate contractor for award;
     DoD officials adequately justified the use of a non-DoD contract in accordance
         with DFARS 217.7802;
     DoD officials used the appropriate fund type for the items purchased in
         accordance with the DoD Financial Management Regulation, volume 2A,
         chapter 1, and the Purpose Statute, 31 U.S.C. 1301;
     DoD use funds in accordance with the bona fide needs rule, 31 U.S.C. 1502; and
     NIH and General Services Administration contracting officers appointed a COR
         and whether the COR conducted adequate contract oversight by developing
         quality assurance surveillance plans and documenting contractor performance in
         accordance with FAR 46.103, “Contracting office responsibilities,” and FAR
         Subpart 46.4, “Government Contract Quality Assurance.”

While reviewing the assisted orders, we interviewed NIH and General Services
Administration contracting and funding personnel and DoD program personnel.

Use of Computer-Processed Data
We used two sets of computer-processed data to identify delivery orders and task orders
to review. First, NIH provided a list of orders DoD awarded with both the assisted and
direct acquisition method from the ECS III, CIO-SP2i, and IW2nd contracting vehicles.


                                            50
Second, we used the EDA system to identify additional orders awarded with the direct
acquisition method from the ECS III, CIO-SP2i, and IW2nd contracting vehicles.

We did not perform a reliability assessment of the data because we used the data only to
identify orders to review. Once we selected an order, we reviewed it using the
documentation from the order file. Therefore, the computer-processed data did not affect
the performance of our audit steps.

We did identify discrepancies between the direct acquisition data provided by NIH and
the data from the EDA system. We identified a total of 49 direct acquisitions awarded in
FY 2007 for greater than $100,000 to potentially review. Of those 49 orders, we found
37 through the EDA system. NIH identified a total of 28 orders, 16 of which were also
found in the EDA system. Therefore, there were 21 orders identified solely by using the
EDA system and 12 orders identified solely by NIH. NIH identified an additional four
orders as being awarded in FY 2007; however, three of those orders were awarded in
FY 2006, and one of the orders was not a DoD order. Clearly, neither set of data was
complete. It is possible that there were direct acquisitions that were not included in either
set of data. If there were, we could not identify those orders to review.




                                             51
52
Appendix B. Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), DoD IG, Army
Audit Agency, and Air Force Audit Agency have issued 25 reports discussing
interagency and information technology contracting. Unrestricted reports can be
accessed over the Internet: GAO, http://www.gao.gov; DoD IG,
http://www.dodig.mil/audit/reports; Army, http://www.hqda.army.mil; and Air Force,
http://www.afaa.hq.af.mil.

GAO
GAO Report No. GAO-07-310, “High-Risk Series: An Update,” January 2007

GAO Report No. GAO-06-996, “Interagency Contracting: Improved Guidance,
Planning, and Oversight Would Enable the Department of Homeland Security to Address
Risks,” September 2006

GAO Report No. GAO-05-456, “Interagency Contracting: Franchise Funds Provide
Convenience, but Value to DoD is Not Demonstrated,” July 2005

GAO Report No. GAO-05-274, “Contract Management: Opportunities to Improve
Surveillance of Department of Defense Service Contracts,” March 2005

GAO Report No. GAO-05-207, “High-Risk Series: An Update,” January 2005

DoD IG
DoD IG Report No. D-2009-043, “FY 2007 DoD Purchases Made Through the U.S.
Department of Veterans Affairs,” January 21, 2009

DoD IG Report No. D-2008-122, “Follow-up on DoD Purchases Made Through the
Department of the Interior,” August 18, 2008

DoD IG Report No. D-2008-082, “Summary Report on Potential Antideficiency Act
Violations Resulting From DoD Purchases Made Through Non-DoD Agencies (FY 2004
Through FY 2007),” April 25, 2008

DoD IG Report No. D-2008-066, “FY 2006 and FY 2007 DoD Purchases Made Through
the Department of the Interior,” March 19, 2008

DoD IG Report No. D-2008-050, “FY 2006 DoD Purchases Made Through the
Department of the Treasury,” February 11, 2008

DoD IG Report No. D-2008-036, “FY 2006 DoD Purchases Made Through the U.S.
Department of Veterans Affairs,” December 20, 2007




                                         53
DoD IG Report No. D-2008-022, “FY 2006 DoD Purchases Made Through the National
Institutes of Health,” November 15, 2007

DoD IG Report No. D-2007-098, “The Use and Control of Intragovernmental Purchases
at the Defense Intelligence Agency,” May 18, 2007

DoD IG Report No. D-2007-044, “FY 2005 DoD Purchases Made Through the
Department of the Interior,” January 16, 2007

DoD IG Report No. D-2007-042, “Potential Antideficiency Act Violations on DoD
Purchases Made Through Non-DoD Agencies,” January 2, 2007

DoD IG Report No. D-2007-032, “Report on FY 2005 DoD Purchases Made Through the
Department of the Treasury,” December 8, 2006

DoD IG Report No. D-2007-023, “FY 2005 DoD Purchases Made Through the National
Aeronautics and Space Administration,” November 13, 2006

DoD IG Report No. D-2007-007, “FY 2005 DoD Purchases Made Through the General
Services Administration,” October 30, 2006

DoD IG Report No. D-2006-029, “Report of Potential Antideficiency Act Violations
Identified During the Audit of the Acquisition of the Pacific Mobile Emergency Radio
System,” November 23, 2005

DoD IG Report No. D-2005-096, “DoD Purchases Made Through the General Services
Administration,” July 29, 2005

DoD IG Report No. D-2005-003, “DoD Antideficiency Act Reporting and Disciplinary
Process,” October 14, 2004

DoD IG Report No. D-2004-084, “Antideficiency Act Investigation of the Research,
Development, Testing, and Evaluation, Defense-Wide Appropriation Account 97
FY1989/1990 0400,” May 28, 2004

Army
Army Report No. A-2004-0244-FFB, “Information Technology Agency Contract
Management,” May 25, 2004

Air Force
Air Force Report No. F2004-0006-FBP000, “GSA Military Interdepartmental Purchase
Requests 353d Special Operations Group Kadena AB Japan,” November 10, 2004

Air Force Report No. F2004-0046-FBP000, “GSA Military Interdepartmental Purchase
Requests 390th Intelligence Squadron Kadena AB Japan,” August 11, 2004



                                          54
Appendix C. Task Order Awarded by the
General Services Administration
During our audit, we reviewed all purchases made on behalf of DoD using the NIH CIO-
SP2i contract. One of the awards under that contract was made by the General Services
Administration. General Services Administration Fed Learn awarded a task order using
the NIH CIO-SP2i multiple-award contract on behalf of the Defense Acquisition
University (DAU). DAU has an interagency agreement with General Services
Administration Fed Learn for e-learning and knowledge management support. This task
order satisfies one of the interagency agreement’s requirements.

We performed contracting and funding analysis for this task order. We identified an
administrative issue related to how DAU provides funding to General Services
Administration Fed Learn and how General Services Administration Fed Learn tracks the
obligation of funds. In addition, we identified a $700,056 potential BFNR violation and
additional funds to be deobligated. See Appendix D, Table D-3, for a summary of the
violations.

Obligating Funds After They Expire
Although DoD IG previously reported in both FY 2005 and FY 2007 on the General
Services Administration’s misuse of DoD funds accepted into the General Services
Administration information technology fund, the General Services Administration
continues to misunderstand the limitations of DoD appropriations by obligating funds
after they expire. DoD IG reports D-2005-096, “DoD Purchases Made Through the
General Services Administration,” issued on July 29, 2005, and D-2007-007, “FY 2005
DoD Purchases Made Through the General Services Administration,” issued on October
30, 2006, both identified problems with the General Services Administration’s use of
DoD funds accepted into the General Services Administration’s revolving information
technology fund. These reports state that both the General Services Administration and
DoD officials misunderstood the law establishing the information technology fund, 40
U.S.C. 757, which states that the information technology fund “shall be available without
fiscal year limitation.” General Services Administration and DoD officials interpreted
this statement to mean that expiring funds could be “parked” or banked” at the General
Services Administration for future purchases. To the contrary, the statement “shall be
available without fiscal year limitation” applies to the capitalized fund itself. The funds
reimbursing the capitalized fund must follow appropriations law.

General Services Administration officials continue to misunderstand the limitations of
expired appropriations. A General Services Administration Financial Management
official stated during the review that expired funds could be used “as long as funds are
obligated to a task order during their period of availability or reasonable period of time
thereafter (usually 90 days).” The latter part of this statement is not factual when the
services are severable. We agree that the funds may be obligated during their period of
availability; however, once appropriations have expired, they cannot be used to award
new contracts or orders.


                                             55
DAU should have in place internal controls to prevent misuse of its funds. DAU should
provide a separate MIPR for each requirement under the interagency agreement. In
addition, DAU should be aware of all fiscal law and regulations related to the funds it
provides to General Services Administration Fed Learn and should keep track of when
these funds expire, when they are obligated, and when they are used to pay for work
performed.

MIPR Descriptions
The MIPRs provided by DAU to General Services Administration Fed Learn should be
more specific. DAU sometimes provides MIPRs that are tied to multiple projects under
the interagency agreement. DFARS PGI 253.208-1(c)(3)(ii) provides instructions for
completing MIPRs and states that DoD should “normally restrict a MIPR to one major
end item.” Providing one MIPR to cover multiple projects within the interagency
agreement conflicts with this guidance and makes the funds’ audit trail more difficult to
follow.

To identify the project or projects associated with a particular MIPR, DAU provided a
DAU MIPR Request Form. The form outlines how much of the funds provided on the
MIPR should be allotted for each particular project under the interagency agreement.
However, of the 14 MIPRs that DAU provided through September 5, 2007, 1 of 14
MIPRs did not have a DAU MIPR Request Form, and 13 of 14 MIPRs did not have a
fully completed DAU MIPR Request Form. There is a box labeled “MIPR #” on the
form that would easily allow one to associate the MIPR with the DAU MIPR Request
Form, but DAU did not complete the box for any of the 13 forms provided. For the
remaining MIPR, DAU’s Executive Director for the e-Learning & Technologies Center
wrote in the proper projects on the amendment to the interagency agreement. By not
fully completing the DAU MIPR Request Form, DAU made it more difficult to
determine which projects applied to each MIPR.

DAU should provide a more specific description on the MIPR and limit each MIPR to
one project under the interagency agreement. By providing greater detail on the MIPR, it
would eliminate the need for the DAU MIPR Request Form and would make it easier for
both DAU and General Services Administration Fed Learn to ensure that the funds are
used for their intended purpose. However, if DAU wishes to continue using the DAU
MIPR Request Form, officials should ensure that the MIPR description states that further
information is provided on the DAU MIPR Request Form and that the “MIPR #” box is
completed on the form.

The General Services Administration Fed Learn’s accounting system lacked an audit trail
for MIPRs. General Services Administration Fed Learn officials could not identify
which MIPRs they obligated on the task order and its modifications. The officials told
the audit team that they use a first-in, first-out methodology. This lack of control over
use of MIPRs led to a potential BFNR violation.




                                            56
Bona Fide Needs Rule
The BFNR is codified in 31 U.S.C. 1502, which states, “The balance of an appropriation
or fund limited for obligation to a definite period is available only for payment of
expenses properly incurred during the period of availability.” BFNR violations may
cause Antideficiency Act violations.

In order to prevent these violations when using interagency acquisition, the Office of the
Under Secretary of Defense (Comptroller)/Chief Financial Officer has issued numerous
policy memoranda. The office issued “Proper Use of Interagency Agreements for Non-
Department of Defense Contracts Under Authorities Other Than the Economy Act” on
March 24, 2005. It stated, “DoD expired funds may not be used by a servicing agency to
enter into a severable services contract.” On March 27, 2006, the office issued another
memorandum with the same title stating that, despite previous guidance, “the use and
control of DoD funds under interagency agreements require improvement. DoD
purchases made through non-DoD entities continue to violate … policies and existing
regulations.” “Non-Economy Act Orders,” issued on October 16, 2006, reiterates that
funds for severable services must be obligated during the funds’ period of availability. In
order for an obligation to occur, 31 U.S.C. 1501 requires a binding written agreement.

However, the proliferation of these memoranda and DoD IG’s FY 2005 and FY 2007
reports on purchases that the General Services Administration made on behalf of DoD
did not prevent another potential BFNR violation.

General Services Administration Fed Learn awarded order GST0007AC3004 on behalf
of DAU on November 8, 2006, for a total ceiling price of $17,088,533. The base period
ended on November 5, 2007. During the base period, General Services Administration
Fed Learn obligated $3.5 million in O&M funds provided by DAU. On the task order
award (effective November 6, 2006) and on modification 3 (effective February 27, 2007),
General Services Administration Fed Learn obligated $700,056 in FY 2006 O&M funds
when FY 2007 O&M funds should have been used. FY 2006 O&M funds were available
for obligation from October 1, 2005, through September 30, 2006. By obligating the
FY 2006 O&M funds on the task order, General Services Administration Fed Learn
potentially violated the BFNR.

In order to correct this potential BFNR violation, DAU should request that General
Services Administration Fed Learn deobligate $700,056 in FY 2006 O&M funds. In
addition, after paying all invoices for work performed during the base period, there are
FY 2007 O&M funds available for deobligation. DAU should request that General
Services Administration Fed Learn deobligate $169,817.69 in FY 2007 O&M funds tied
to the base period. If General Services Administration Fed Learn does not deobligate
these funds, and uses them to pay for work performed outside their period of availability,
this will cause an additional BFNR violation. All deobligated funds should be returned to
DoD for reporting to the Department of the Treasury.




                                            57
Conclusion
These problems occurred primarily because the General Services Administration Fed
Learn and DAU officials did not know, misinterpreted, or did not follow regulations.
DAU officials did not adequately keep track of funds sent to the General Services
Administration for each project under the interagency agreement. As a result, funds were
not used as intended by Congress. The Under Secretary of Defense (Comptroller)/Chief
Financial Officer should address the potential bona fide needs rule violation and other
funding issues related to the Defense Acquisition University when it implements
Recommendation C.

Unsolicited Management Comments on the Appendix
and Our Response
Although not required to comment, the Acting Commissioner of the General Services
Administration’s Federal Acquisition Service provided the following comments on this
appendix. For the full text of the Acting Commissioner’s comments, see the
Management Comments section of the report.

General Services Administration’s Federal Acquisition Service
Comments
The Acting Commissioner stated that the use of the FY 2006 funds to pay for work
performed after the funds’ period of availability does not constitute a bona fide needs rule
violation: “GSA’s obligation of funds complied with GSA policies in place during the
time frame in which the contracting actions occurred.” The Acting Commissioner also
stated that the General Services Administration did not issue new guidance regarding the
obligation of expiring funds until November 2006, which was after it awarded this order.

The Acting Commissioner stated that there is a system for tracking all activities
associated with client funding (MIPRs) and provided the specific MIPRs associated with
each modification of the task order. In particular, the Acting Commissioner stated that
the General Services Administration obligated FY 2007 funds on modification 3.
Therefore, he concluded that there was only $475,236 in FY 2006 funds that the General
Services Administration did not obligate according to DoD policy.

Our Response
On May 6, 2008, the audit team met with General Services Administration funding
officials. During this meeting, we asked if the officials could identify which particular
MIPR was obligated on a particular modification, and the funding officials stated that
they could not. The funding officials stated that they used a first-in, first-out
methodology for obligating funds. Based on this information, the audit team determined
that the General Services Administration obligated FY 2006 funds on modification 3.
Although the comments state that the General Services Administration obligated
FY 2007 funds on modification 3, this documentation was not provided to the audit team
during the audit, and as indicated previously, funding officials stated that they used a
first-in, first-out methodology for obligating funds on the task order. If the General



                                            58
Services Administration provided documentation to support its assertions that it obligated
FY 2007 funds on modification 3, the audit team would agree that the use of those funds
was proper and does not represent a potential bona fide needs rule violation. However,
the FY 2006 funds obligated at the award of the task order remain a potential bona fide
needs rule violation.

The General Services Administration stated that the use of FY 2006 funds to award a task
order in FY 2007 was not a violation of the bona fide needs rule, only a violation of DoD
policy. The bona fide needs rule, 31 U.S.C. 1502, states, “The balance of an
appropriation or fund limited for obligation to a definite period is available only for
payment of expenses properly incurred during the period of availability or to complete
contracts properly made within that period of availability and obligated consistent with
section 1501 of this title.” Section 1501 requires a binding written agreement between
two agencies for an obligation to occur. The binding written agreement for the purpose
of obligation would be the task order, which contractually binds the Government to pay
for services. Therefore, it seems clear that obligating funds after those funds expired is a
violation of the bona fide needs rule, which is codified in United States Code and in the
FAR, which applies to the entire executive branch of the Federal Government, not just
DoD. The General Services Administration’s statement that it did not have its new
funding policy in place until November 2006 does not render the General Services
Administration blameless. The General Services Administration should still be familiar
with appropriations law. It seems that the agency’s original policy, to allow funds to be
obligated for “a reasonable period of time” after the funds expired, was not legal.

An agency that chooses to do business with DoD should follow all relevant DoD policies,
especially when obligating DoD funds. In short, the General Services Administration
cannot use DoD funds in a manner that DoD could not use then. We disagree with the
Acting Commissioner’s determination that the use of the FY 2006 funds to award the task
order does not violate the bona fide needs rule.




                                            59
60
    Appendix D. Funding Analysis Summary
                   Table D-1. Funding Summary for Direct Acquisitions
                                      NIH Multiple-Award       Potential Bona Fide
                 Delivery Order
                                           Contract            Needs Rule Violation
               W91QV1-07-F-2M06             ECS III                      $178,201.90
                N65236-07-F-3817            ECS III                       167,411.24
                SP1300-07-F-0454            IW2nd                         499,895.00
                     Total                                               $845,508.14



    Table D-2. Funding Summary for CIO-SP2i Assisted Acquisitions Awarded by NIH
                          Potential Bona    Potential     Potential
Task      Amount           Fide Needs       Purpose          Anti-         Total To        Total To
Order    Obligated*       Rule Violation     Statute      deficiency      Deobligate       Obligate
                          Not Corrected     Violation    Act Violation
2054     $38,566,339.91       $37,878.17                                   $37,878.17     $562,286.96
2204      12,659,550.22       514,605.54                                   592,551.42
2213       2,128,019.00
2215      12,965,873.63       476,045.97                                   476,045.97       71,202.18
2228      43,622,277.01
2232      18,022,029.96                                                    140,635.25      141,642.32
2311         761,605.76                                                     92,941.68
2315       6,648,176.56        10,366.74                                    10,366.74       10,376.64
2323       6,518,049.12
2331      10,590,037.91                                                       1,343.21
2361       5,354,573.83
2369      11,428,094.78                                                     268,393.70
2376      20,332,953.41                                                     610,523.16
2377      19,120,954.19        83,744.99                                     84,520.35
2380      20,476,791.18     2,395,814.42                                  2,395,814.42     924,055.13
2407       1,756,423.79
2409       5,553,601.09                                    $27,547.70      338,581.59       27,547.70
2412       4,397,982.77                    $455,086.82                     455,086.82      462,220.17
2425      28,191,940.97
2430         986,918.00                                     26,052.89       26,052.89       26,052.89
2480       1,304,148.68
2503      10,753,297.55
2519         325,853.66                                                    $76,446.57
2520       3,741,049.00
Total   $286,206,541.98    $3,518,455.83   $455,086.82     $53,600.59    $5,607,181.94   $2,225,383.99

    * “Amount Obligated” is based on period of performance ending on or before March 31,
    2008.



                                                61
Appendix D. Funding Analysis Summary
(continued)
Table D-3. Funding Summary for CIO-SP2i Assisted Acquisition Awarded by the
                      General Services Administration
                                              Bona Fide
                             Amount           Needs Rule      Total To
           Task Order
                             Obligated       Violation Not   Deobligate
                                              Corrected
         GST0007AC3004       $3,504,803.81     $700,056.00   $869,873.69




                                     62
Appendix E. Potential Bona Fide Needs Rule
Violations
We identified 10 task orders with potential BFNR violations totaling $12.2 million. See
Appendix D for a summary of the remaining violations.

Task Order 2054
We reported funding problems for this task order in our previous audit. We reviewed this
order again to determine whether NIH corrected the potential BFNR violation.

NIH awarded task order 2054 on behalf of the United States Southern Command on
October 1, 2001. The task order’s period of performance consisted of a 1-year base
period and four 1-year option periods. The task order ended on September 30, 2006.
Over the life of the task order, NIH obligated $40.0 million in O&M funds provided by
United States Southern Command. NIH officials used $3.6 million of those funds to pay
for work performed outside of the funds’ period of availability, causing a potential BFNR
violation.

DoD funded the base period, October 1, 2001, through September 30, 2002, with
$7.9 million in FY 2002 O&M funds. The invoices for work performed during the base
period totaled $6.2 million. Although FY 2002 O&M funds of $1.7 million remained,
NIH used these funds to pay for work performed outside of the funds’ period of
availability.

DoD funded the option 1 period, October 1, 2002, through September 30, 2003, with
$12.0 million in FY 2002 and FY 2003 O&M funds. The FY 2002 O&M funds provided
were atypical because they had a 2-year period of availability. The invoices for work
performed during the option 1 period totaled $10.6 million. Although FY 2002 or
FY 2003 O&M funds of $1.4 million remained, NIH used these funds to pay for work
performed outside of the funds’ period of availability.

DoD funded the option 2 period, October 1, 2003, through September 30, 2004, with
$8.7 million in FY 2004 O&M funds. The invoices for work performed during the
option 2 period totaled $8.5 million. Although FY 2004 O&M funds of $192,297
remained, NIH used these funds to pay for work performed outside of the funds’ period
of availability.

DoD funded the option 3 period, October 1, 2004, through September 30, 2005, with
$7.9 million in FY 2005 O&M funds. The invoices for work performed during the
option 3 period totaled $7.7 million. Although FY 2005 O&M funds of
$0.3 million4 remained, NIH used these funds to pay for work performed outside of the
funds’ period of availability.


4
    The discrepancy in remaining option 3 funds results from rounding.


                                                     63
DoD funded the option 4 period, October 1, 2005, through September 30, 2006, with
$5.3 million in FY 2006 O&M funds. The invoices for work performed during the
option 4 period totaled $8 million. Option 4 was underfunded by $2.7 million and was
partially paid for with expired funds from earlier option periods.

To correct the BFNR violations, DoD should have requested that NIH deobligate:
     $1,736,388 in FY 2002 O&M funds;
     $1,412,794 in FY 2003 O&M funds;
     $192,297 in FY 2004 O&M funds; and
     $264,423 in FY 2005 O&M funds.
In addition, to fully cover the cost of all work performed under option 4, DoD should
have provided $2,745,287 in FY 2006 O&M funds.

In an attempt to correct these potential BFNR violations, NIH deobligated $3.6 million
and United States Southern Command provided $2.1 million. However, the amounts of
each particular fund that NIH deobligated were incorrect. NIH deobligated the
$3.6 million on modification 44, which was effective June 20, 2007—almost a full
9 months after the task order ended. Specifically, NIH deobligated:
     $1,750,647 in FY 2002 O&M funds;
     $1,415,697 in FY 2003 O&M funds;
     $154,419 in FY 2004 O&M funds; and
     $285,139 in FY 2005 O&M funds.
DoD provided $2,183,000 in FY 2006 O&M funds. Therefore, there is still a potential
BFNR violation of $37,878 in FY 2004 funds related to option 2 that were not corrected
and $562,287 in FY 2006 O&M funds are necessary to fully fund option 4. Until these
discrepancies are fixed, the potential BFNR violation still exists and may lead to an
Antideficiency Act violation.

Task Order 2204
We conducted a funding review of this task order in our previous audit. We reviewed
this order again to determine whether NIH corrected the potential BFNR violation.

NIH awarded task order 2204 on behalf of the Joint Task Force-Global Network
Operations on September 30, 2002. The task order’s period of performance consisted of
a 2-year base period and four 1-year option periods. Option 3 ended on September 29,
2007. From the base through option 3, NIH obligated $12.7 million in O&M funds
provided by Joint Task Force-Global Network Operations. NIH officials used $514,606
of those funds to pay for work performed outside of the funds’ period of availability,
causing a potential BFNR violation.

DoD funded the base period, September 30, 2002, through September 29, 2004, with
$4 million in FY 2002, FY 2003, and FY 2004 O&M funds. The invoices for work
performed during the base period totaled $3.7 million. Although O&M funds of
$252,037 remained, NIH used these funds to pay for work performed outside of the
funds’ period of availability.


                                           64
DoD funded the option 1 period, September 30, 2004, through September 29, 2005, with
$2.3 million in FY 2005 O&M funds. The invoices for work performed during the
option 1 period totaled $2.1 million. Although FY 2005 O&M funds of $215,061
remained, NIH used these funds to pay for work performed outside of the funds’ period
of availability.

DoD funded the option 2 period, September 30, 2005, through September 29, 2006, with
$3.2 million in FY 2005 and FY 2006 O&M funds. The invoices for work performed
during the option 2 period totaled $3.2 million. FY 2005 or FY 2006 O&M funds of
$47,508 remained.

DoD funded the option 3 period, September 30, 2006, through September 29, 2007, with
$3.2 million in FY 2006 and FY 2007 O&M funds. The invoices for work performed
during the option 3 period totaled $3.1 million. FY 2006 or FY 2007 O&M funds of
$77,946 remained.

To correct the BFNR violations and deobligate expired funds, DoD should request that
NIH deobligate:
    $252,037 in FY 2002, FY 2003, or FY 2004 O&M funds tied to the base;
    $215,061 in FY 2005 O&M funds tied to option 1;
    $47,508 in FY 2005 or FY 2006 O&M funds tied to option 2; and
    $77,946 in FY 2006 or FY 2007 O&M funds tied to option 3.

As of June 1, 2008, NIH had not corrected these potential BFNR violations. Until these
funds are deobligated, the potential BFNR still exists and may lead to an Antideficiency
Act violation.

Task Order 2215
NIH awarded task order 2215 on behalf of the Naval Education and Training Command
on January 1, 2003. The task order’s period of performance consisted of a 1-year base
period and five 1-year option periods. Option 4 ended on December 31, 2007. From the
base through option 4, NIH obligated $13.0 million5 in O&M funds provided by Naval
Education and Training Command. NIH officials used $476,036 of those funds to pay
for work performed outside of the funds’ period of availability, causing a potential BFNR
violation.

DoD funded the base period, January 1 through December 31, 2003, with $2.1 million in
FY 2003 and FY 2004 O&M funds. The invoices for work performed during the base
period totaled $1.9 million. O&M funds of $266,886 remained, of which $24,959 were
FY 2004 O&M funds. NIH used the remaining $241,927 of FY 2003 funds to pay for
work performed outside of the funds’ period of availability.



5
    The sum of base and option funding differs from $13.0 million due to rounding.


                                                     65
DoD funded the option 1 period, January 1 through December 31, 2004, with
$2.2 million in FY 2004 O&M funds. The invoices for work performed during the
option 1 period totaled $2.3 million. Option 1 was underfunded by $34,780. The
FY 2004 O&M funds from the base period were available to be obligated during the
option 1 period of performance. Therefore, the $24,959 remaining in the base period
offsets the deficit from option 1, leaving a $9,821 deficit.

DoD funded the option 2 period, January 1 through December 31, 2005, with
$3.6 million in FY 2005 O&M funds. The invoices for work performed during the
option 2 period totaled $3.4 million. FY 2005 O&M funds of $243,939 remained. The
FY 2005 O&M funds were available for obligation during the option 1 period of
performance. Therefore, the remaining $9,821 deficit from option 1 is offset by the
remaining FY 2005 O&M funds, leaving an excess of $234,119 in FY 2005 O&M funds.
NIH used the entire $234,119 in FY 2005 O&M funds to pay for work performed outside
of their period of availability.

DoD funded the option 3 period, January 1 through December 31, 2006, with
$2.6 million in FY 2006 O&M funds. The invoices for work performed during the
option 3 period totaled $2.7 million. Option 3 was underfunded by $114,972.

DoD funded the option 4 period, January 1 through December 31, 2007, with
$2.4 million in FY 2007 O&M funds. The invoices for work performed during the
option 4 period totaled $2.3 million. FY 2007 O&M funds of $43,770 remained. The
FY 2007 O&M funds were available for obligation during the option 3 period of
performance. Therefore, the $114,972 deficit from option 3 is offset by the remaining
FY 2007 O&M funds, leaving an option 3 deficit of $71,202.

To correct the BFNR violations, DoD should request that NIH deobligate a total of
$476,045.97:
    $241,927 in FY 2003 O&M funds; and
    $234,119 in FY 2005 O&M funds.

As of June 1, 2008, NIH had not corrected these potential BFNR violations. In addition,
to fully fund option 3, DoD should provide $71,202 in FY 2006 or FY 2007 O&M funds.
Until these discrepancies are fixed, the potential BFNR violation still exists and may
lead to an Antideficiency Act violation.

Task Order 2228
We conducted a funding review of this task order in our previous audit. We reviewed the
order again to determine whether NIH corrected the potential BFNR violation.

NIH awarded task order 2228 on behalf of United States Southern Command on June 1,
2003. The task order’s period of performance consisted of a 10-month base period and
four 1-year option periods. Option 3 ended on April 30, 2007. From the base through




                                           66
option 3, NIH obligated $45.0 million6 in O&M funds provided by United States
Southern Command. NIH officials used $2.4 million of those funds to pay for work
performed outside of the funds’ period of availability, causing a potential BFNR
violation.

DoD funded the base period, June 1, 2003, through April 30, 2004, with $9.5 million in
FY 2003 O&M funds. The invoices for work performed during the base period totaled
$7.7 million. Although FY 2003 O&M funds of $1.8 million remained, NIH used the
entire balance of those funds to pay for work performed outside of the funds’ period of
availability.

DoD funded the option 1 period, May 1, 2004, through April 30, 2005, with
$10.7 million in FY 2004 O&M funds. The invoices for work performed during the
option 1 period totaled $11.5 million. Option 1 was underfunded by $806,065.

DoD funded the option 2 period, May 1, 2005, through April 30, 2006, with
$10.8 million in FY 2005 O&M funds. The invoices for work performed during the
option 2 period totaled $10.2 million. Although FY 2005 O&M funds of $598,677
remained, NIH used the entire balance of those funds to pay for work performed outside
of the funds’ period of availability.

DoD funded the option 3 period, May 1, 2006, through April 30, 2007, with
$13.9 million in FY 2006 O&M funds. The invoices for work performed during the
option 3 period totaled $14.2 million. Option 3 was underfunded by $237,512.

To correct the BFNR violations, DoD should have requested that NIH deobligate:
    $1.8 million FY 2003 O&M funds; and
    $598,677 in FY 2005 O&M funds.

In addition, to fully cover the cost of all work performed under options 1 and 3, DoD
should have provided:
     $806,065 in FY 2004 or FY 2005 O&M funds; and
     $237,512 in FY 2006 or FY 2007 funds.

NIH deobligated the appropriate funds on modification 16, which was effective on
June 20, 2007. United States Southern Command provided NIH with $806,605 in
FY 2004 O&M funds and $237,512 in FY 2006 O&M funds that NIH obligated on
modification 1 in the new business system, which was effective September 7, 2007. For
work performed from the base through option 3, all potential BFNR violations were
corrected and there are no further funds to be obligated or deobligated.




6
    The sum of base and option funding differs from $45.0 million due to rounding.


                                                     67
Task Order 2232
We conducted a funding review of this task order in our previous audit. We reviewed
this order again to determine whether NIH corrected the potential BFNR violation.

NIH awarded task order 2232 on behalf of Joint Interagency Task Force South on May 1,
2003. The task order’s period of performance consisted of a 5-month base period and six
1-year option periods. Option 4 ended on September 30, 2007. From the base through
option 4, NIH obligated $18.8 million in O&M funds provided by Joint Interagency Task
Force South. NIH officials used $512,620 of those funds to pay for work performed
outside of the funds’ period of availability, causing a potential BFNR violation.

DoD funded the base period, May 1, 2003, through September 30, 2003, with
$1.4 million in FY 2003 O&M funds. The invoices for work performed during the base
period totaled $1.4 million. The base was underfunded by $11,111.

DoD funded the option 1 period, October 1, 2003, through September 30, 2004, with
$3.6 million in FY 2004 O&M funds. The invoices for work performed during the option
1 period totaled $3.6 million. Option 1 was underfunded by $43,526.

DoD funded the option 2 period, October 1, 2004, through September 30, 2005, with
$4.2 million in FY 2005 O&M funds. The invoices for work performed during the option
2 period totaled $4 million. Although FY 2005 O&M funds of $0.1 million7 remained,
NIH used the entire balance of those funds to pay for work performed outside of the
funds’ period of availability.

DoD funded the option 3 period, October 1, 2005, through September 30, 2006, with
$4.7 million in FY 2006 O&M funds. The invoices for work performed during the option
3 period totaled $4.3 million. Although FY 2006 O&M funds of $0.4 million remained,
NIH used the entire balance of those funds to pay for work performed outside of the
funds’ period of availability.

DoD funded the option 4 period, October 1, 2006, through September 30, 2007, with
$4.9 million in FY 2007 O&M funds. The invoices for work performed during the option
4 period totaled $4.6 million. FY 2007 O&M funds of $0.4 million8 remained.

To correct the BFNR violations and deobligate expired funds, DoD should have
requested that NIH deobligate:
    $130,656 in FY 2005 O&M funds;
    $381,954 in FY 2006 O&M funds; and
    $350,635 in FY 2007 O&M funds.




7
    The discrepancy in remaining option 2 funds results from rounding.
8
    The discrepancy in remaining option 4 funds results from rounding.


                                                     68
In addition, to fully cover the cost of all work performed during the base and option 1
periods, DoD should have provided:
     $11,111 in FY 2003 O&M funds; and
     $43,526 in FY 2004 O&M funds.

NIH deobligated $599,674 on modification 18, which was effective June 21, 2007.
Specifically, NIH deobligated:
    $130,714 in FY 2005 O&M funds; and
    $468,959 in FY 2006 O&M funds.

NIH deobligated $87,006 too much in FY 2006 O&M funds. Therefore, to fully fund all
work performed, DoD should provide NIH with a total of $141,642 in O&M funds:
    $11,111 in FY 2003 O&M funds;
    $43,526 in FY 2004 O&M funds; and
    $87,006 in FY 2006 O&M funds.

In addition, NIH deobligated $210,000 in FY 2007 O&M funds on modification 19,
which was effective on August 10, 2007. Therefore, the potential BFNR violations
involving FY 2005 and FY 2006 O&M funds were corrected. However, there is still
$140,635 in FY 2007 O&M funds that DoD should request NIH to deobligate. If NIH
uses these funds to pay for work performed after the funds’ period of availability, it will
cause a potential BFNR violation.

Task Order 2315
We conducted a funding review of this task order in our previous audit. We reviewed
this order again to determine whether NIH corrected the potential BFNR violation.

NIH awarded task order 2315 on behalf of the Air Force Materiel Command
Communications on May 19, 2004. The task order’s period of performance consisted of
a 4-month base period, one 1-year option period, and one 19-month option period. The
task order ended on April 30, 2007. Over the life of the task order, NIH obligated
$6.6 million in O&M funds provided by Air Force Materiel Command. NIH officials
used $10,367 of FY 2004 O&M funds to pay for work performed outside of the funds’
period of availability, causing a potential BFNR violation.

DoD funded the base period, May 19 through September 21, 2004, with $324,293 in
FY 2004 O&M funds. The FY 2004 O&M funds did not expire until September 30,
2004. The invoices for work performed during the base period and through
September 30, 2004, totaled $313,925. Although FY 2004 O&M funds of $10,367
remained, NIH used the entire balance of those funds to pay for work performed outside
of the funds’ period of availability.

DoD funded the option 1 period, September 22, 2004, through September 21, 2005, with
$1.7 million in FY 2004 O&M funds and $1.7 million FY 2005 O&M funds for a total of
$3.4 million. The FY 2005 O&M funds did not expire until September 30, 2005. The



                                             69
invoices for work performed from October 1, 2004, through September 30, 2005, totaled
$2.9 million. FY 2005 O&M funds of $460,220 remained.

DoD funded the option 2 period, September 22, 2005, through April 30, 2007, with
$2.9 million in FY 2006 and FY 2007 O&M funds. The invoices for work performed
from October 1, 2005, through April 30, 2007, totaled $3.4 million. Option 2 was
underfunded by $470,597. The FY 2005 funds remaining in option 1 were available for
obligation during the option 2 period of performance. Therefore, those funds offset the
deficit in the option 2 period, leaving a $10,377 deficit in option 2.

To correct this BFNR violation, DoD should have requested that NIH deobligate $10,367
in FY 2004 O&M funds. In addition, to cover the cost of all work performed during
option 2, DoD should have provided $10,377 in FY 2006 or FY 2007 O&M funds.

As of June 1, 2008, NIH had not corrected this potential BFNR violation. Until the funds
are deobligated, the potential BFNR violation exists and may lead to a potential
Antideficiency Act violation.

Task Order 2361
We conducted a funding review of this task order in our previous audit. The DoD
Criminal Investigative Task Force took corrective action prior to the issuance of our
previous report. We reviewed this order again to determine whether there were any new
funding issues, since the corrective actions were taken.

NIH awarded order 2361 on behalf of the DoD Criminal Investigative Task Force on
January 6, 2005. The task order’s period of performance consisted of a 1-year base
period, a 1-year option period, and a 15-month option period. Option 1 ended on
January 5, 2007. Option 2 was originally to end on January 5, 2008; however, the DoD
Criminal Investigative Task Force requested that NIH extend the option 2 period of
performance through April 5, 2008. From the base through option 1, NIH obligated
$7.5 million in O&M funds provided by DoD Criminal Investigative Task Force. NIH
officials used $1.1 million in FY 2005 O&M funds to pay for work performed outside of
the funds’ period of availability, causing a potential BFNR violation.

DoD funded the base period, January 6, 2005, through January 5, 2006, with $3.2 million
in FY 2005 O&M funds. The invoices for work performed during the base period totaled
$2.2 million. Although FY 2005 O&M funds of $1.1 million remained, NIH used the
entire balance of these funds to pay for work performed outside of the funds period of
availability.

DoD funded the option 1 period, January 6, 2006, through January 5, 2007, with
$4.3 million in FY 2006 O&M funds. The invoices for work performed during the option
1 period totaled $3.2 million. FY 2006 O&M funds of $1.1 million remained.

To correct this potential BFNR violation and prevent further misuse of funds, DoD
Criminal Investigative Task Force requested that NIH deobligate $1.1 million in FY 2005


                                           70
O&M funds and $1.1 million in FY 2006 funds. NIH deobligated these funds on
modification 9, which was effective on May 5, 2007. For work performed from the base
through option 1, DoD Criminal Investigative Task Force fully corrected the potential
BFNR violation and there are no further funds to be obligated or deobligated. We
commend DoD Criminal Investigative Task Force management for their diligence in
taking immediate corrective action.

Task Order 2369
We conducted a funding review of this task order in our previous audit. We reviewed
this order again to determine whether NIH corrected the potential BFNR violation.

NIH awarded order 2369 on behalf of Defense Information Systems Agency Manpower,
Personnel, and Security Directorate on January 27, 2005. The task order’s period of
performance consisted of a 1-year base period and four 1-year option periods. Option 2
ended on January 26, 2008. From the base through option 2, NIH obligated $11.4 million
in Research, Development, Test, and Evaluation funds provided by Defense Information
Systems Agency Manpower, Personnel, and Security Directorate. NIH officials used
$1.2 million of FY 2004 Research, Development, Test, and Evaluation funds to pay for
work performed outside of the funds’ period of availability, causing a potential BFNR
violation.

DoD funded the base period, January 27, 2005, through January 26, 2006, with FY 2004
Research, Development, Test, and Evaluation funds of $4 million. The invoices for work
performed during the base period totaled $2.8 million. Although FY 2004 funds of
$1.2 million remained, NIH used the entire balance of those funds to pay for work
performed outside of the fund’s period of availability.

DoD funded the option 1 period, January 27, 2006, through January 26, 2007, with
FY 2005 Research, Development, Test, and Evaluation funds of $3.4 million. The
invoices for work performed during the option 1 period totaled $3.2 million. FY 2005
funds of $209,695 remained.

DoD funded the option 2 period, January 27, 2007, through January 26, 2008, with
FY 2006 Research, Development, Test, and Evaluation funds of $4 million. The invoices
for work performed during the option 2 period totaled $3.7 million. FY 2006 funds of
$268,394 remained.

To correct the BFNR violation and deobligate expired funds, DoD should have requested
that NIH deobligate:
     $1.4 million in FY 2004 Research, Development, Test, and Evaluation funds; and
     $268,394 in FY 2006 Research, Development, Test, and Evaluation funds.

In an attempt to correct the potential BFNR violation, NIH deobligated $1,373,725 in
FY 2004 Research, Development, Test, and Evaluation funds on modification 3 in the
new business system, which was effective August 1, 2007. Although NIH deobligated
$209,695 too much in FY 2004 funds, the excess FY 2005 funds remaining in option 1


                                          71
offset the excessive deobligation. The FY 2005 funds were available for obligation
during the base period of performance; therefore, they could be used to offset the deficit
in the base period. The BFNR violation was corrected and there are no funds to be
deobligated for option 1.

There are $268,394 in FY 2006 Research, Development, Test, and Evaluation funds
remaining for option 2. These funds should be deobligated, because they are expired. If
NIH uses these funds to pay for work performed after option 2, this will cause a potential
BFNR violation.

Task Order 2377
We conducted a funding review of this task order in our previous audit. We reviewed
this order again to determine whether NIH corrected the potential BFNR violation.

NIH awarded order 2377 on behalf of the Office of the Secretary of the Air Force
Financial Management, Information Systems and Technology Directorate on
February 21, 2005. The task order’s period of performance consisted of a 1-year base
period and four 1-year option periods. Option 2 ended on February 20, 2008. From the
base through option 2, NIH obligated $19.1 million in O&M funds provided by the
Office of the Secretary of the Air Force Financial Management, Information Systems and
Technology Directorate. NIH officials used $83,745 in FY 2006 O&M funds to pay for
work performed outside of the funds’ period of availability, causing a potential BFNR
violation.

DoD funded the base period, February 21, 2005, through February 20, 2006, with
$5.7 million in FY 2005 O&M funds. The invoices for work performed during the base
period totaled $5.7 million. The base was underfunded by $14,521.

DoD funded the option 1 period, February 21, 2006, through February 20, 2007, with
$7.2 million in FY 2006 O&M funds. The invoices for work performed during the base
period totaled $7.1 million. FY 2006 O&M funds of $98,266 remained. FY 2006 O&M
funds were available for obligation during the base period. Therefore, part of the
remaining FY 2006 O&M funds from option 1 could be used to offset the $14,251 deficit
from the base. After offsetting the deficit from the base, FY 2006 O&M funds of
$83,745 remained, which NIH used to pay for work performed outside of the funds’
period of availability.

DoD funded the option 2 period, February 21, 2007, through February 20, 2008, with
$6.2 million in FY 2007 O&M funds. The invoices for work performed during the
option 2 period totaled $6.2 million. FY 2007 O&M funds of $775 remained.

As of June 1, 2008, NIH had not corrected this potential BFNR violation. To correct the
potential BFNR violation, the Office of the Secretary of the Air Force Financial
Management, Information Systems and Technology Directorate should request that NIH
deobligate $83,745 in FY 2006 O&M funds. If the BFNR violation is not corrected, this
could lead to an Antideficiency Act violation. In addition, to prevent further misuse of


                                            72
expired funds, the Office of the Secretary of the Air Force Financial Management,
Information Systems and Technology Directorate should request that NIH deobligate
$775 in FY 2007 O&M funds.

Task Order 2380
We conducted a funding review of this task order in our previous audit. We reviewed
this order again to determine whether NIH corrected the potential BFNR violation.

NIH awarded order 2380 on behalf of Pentagon Telecommunications Center on
February 23, 2005. The task order’s period of performance consisted of a 1-year base
period and four 1-year option periods. Option 2 ended on February 22, 2008. From the
base through option 2, NIH obligated $23.4 million9 in O&M funds provided by
Pentagon Telecommunications Center. NIH officials used $2.4 million in FY 2005 O&M
funds to pay for work performed outside of the funds’ period of availability, causing a
potential BFNR violation.

DoD funded the base period, February 23, 2005, through February 22, 2006, with
$14.4 million in FY 2005 and FY 2006 O&M funds. The invoices for work performed
during the base period totaled $6.6 million. FY 2005 and FY 2006 O&M funds of
$7.8 million remained, of which $5.4 million were FY 2006 O&M funds. NIH
deobligated $2,874,797 of these expired FY 2006 O&M funds on modification 17, which
was effective May 4, 2007. After the deobligation, base funds of $5 million remained, of
which $2.6 were FY 2006 O&M funds.

DoD funded the option 1 period, February 23, 2006, through February 22, 2007, with
$2.7 million in FY 2006 O&M funds. The invoices for work performed during that time
totaled $6.7 million. Option 1 was underfunded by $4 million. The FY 2006 O&M
funds from the base were available for obligation during the option 1 period. Therefore,
the remaining $2.6 million in FY 2006 O&M funds offset the option 1 deficit, leaving a
deficit of $1.4 million. After using the FY 2006 O&M funds from the base, there were
$2.4 million in FY 2005 O&M funds remaining in the base, which NIH used to pay for
work performed outside of the FY 2005 O&M funds’ period of availability.

DoD funded the option 2 period, February 23, 2007, through February 22, 2008, with
$6.2 million in FY 2007 O&M funds. The invoices for work performed during the
option 2 period totaled $5.7 million. FY 2007 O&M funds of $476,579 remained.
FY 2007 O&M funds were available for obligation during the option 1 period.
Therefore, the balance of FY 2007 O&M funds remaining in option 2 offset a portion of
the deficit from the option 1 period. This left an option 1 deficit of $924,055 and no
funds to be deobligated or provided for option 2.

As of June 1, 2008, NIH had not corrected this potential BFNR violation and DoD had
not provided funds to cover the cost of all work performed during option 1. To correct


9
    The sum of base and option funding differs from $23.4 million due to rounding.


                                                     73
this potential BFNR violation, the Pentagon Telecommunications Center should request
that NIH deobligate $2,395,814 in FY 2005 O&M funds. If this BFNR violation is not
corrected, it may lead to an Antideficiency Act violation. In addition, to fully cover the
cost of all work performed during option 1, DoD should provide NIH with $924,055 in
FY 2006 or FY 2007 O&M funds.




                                            74
Under Secretary of Defense for Acquisition, Technology,
and Logistics Comments




                    Click to add JPEG file




                                   75
Click to add JPEG file




               76
Under Secretary of Defense (Comptroller)/Chief Financial
Officer Comments




                    Click to add JPEG file




                                   77
Click to add JPEG file




               78
Click to add JPEG file




               79
Software Engineering Center-Belvoir Comments




                  Click to add JPEG file




                                 80
Click to add JPEG file




               81
Space and Naval Warfare Systems Center Atlantic
Comments




                   Click to add JPEG file




                                  82
Click to add JPEG file




               83
Click to add JPEG file




               84
Click to add JPEG file




               85
Aeronautical Systems Center Comments




                  Click to add JPEG file




                                 86
U.S. Army Special Operations Command Comments




                 Click to add JPEG file




                                87
Click to add JPEG file




               88
National Institutes of Health Comments




                    Click to add JPEG file




                                   89
Click to add JPEG file




               90
General Services Administration Comments




                  Click to add JPEG file




                                 91
Click to add JPEG file




               92
                           Final Report
                            Reference




                         Deleted p.54


Click to add JPEG file




                         Attachment omitted
                         because it
                         contained
                         personally
                         identifiable
                         information




               93
Click to add JPEG file




               94
Click to add JPEG file




               95
Click to add JPEG file




               96
